<html>
<title> - NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2009 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED TENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 110-127]


                                HEARING

                                   ON
 
                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2009

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

             BUDGET REQUEST FROM THE DEPARTMENT OF THE NAVY

                               __________

                              HEARING HELD

                             MARCH 6, 2008

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Tenth Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          DUNCAN HUNTER, California
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
GENE TAYLOR, Mississippi             JOHN M. McHUGH, New York
NEIL ABERCROMBIE, Hawaii             TERRY EVERETT, Alabama
SILVESTRE REYES, Texas               ROSCOE G. BARTLETT, Maryland
VIC SNYDER, Arkansas                 HOWARD P. ``BUCK'' McKEON, 
ADAM SMITH, Washington                   California
LORETTA SANCHEZ, California          MAC THORNBERRY, Texas
MIKE McINTYRE, North Carolina        WALTER B. JONES, North Carolina
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
ROBERT A. BRADY, Pennsylvania        W. TODD AKIN, Missouri
ROBERT ANDREWS, New Jersey           J. RANDY FORBES, Virginia
SUSAN A. DAVIS, California           JEFF MILLER, Florida
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                FRANK A. LoBIONDO, New Jersey
JIM MARSHALL, Georgia                TOM COLE, Oklahoma
MADELEINE Z. BORDALLO, Guam          ROB BISHOP, Utah
MARK E. UDALL, Colorado              MICHAEL TURNER, Ohio
DAN BOREN, Oklahoma                  JOHN KLINE, Minnesota
BRAD ELLSWORTH, Indiana              CANDICE S. MILLER, Michigan
NANCY BOYDA, Kansas                  PHIL GINGREY, Georgia
PATRICK J. MURPHY, Pennsylvania      MIKE ROGERS, Alabama
HANK JOHNSON, Georgia                TRENT FRANKS, Arizona
CAROL SHEA-PORTER, New Hampshire     BILL SHUSTER, Pennsylvania
JOE COURTNEY, Connecticut            THELMA DRAKE, Virginia
DAVID LOEBSACK, Iowa                 CATHY McMORRIS RODGERS, Washington
KIRSTEN E. GILLIBRAND, New York      K. MICHAEL CONAWAY, Texas
JOE SESTAK, Pennsylvania             GEOFF DAVIS, Kentucky
GABRIELLE GIFFORDS, Arizona          DOUG LAMBORN, Colorado
NIKI TSONGAS, Massachusetts
ELIJAH E. CUMMINGS, Maryland
KENDRICK B. MEEK, Florida
KATHY CASTOR, Florida

                    Erin C. Conaton, Staff Director
                 Mark Lewis, Professional Staff Member
               Stephanie Sanok, Professional Staff Member
                    Caterina Dutto, Staff Assistant
                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Thursday, March 6, 2008, Fiscal Year 2009 National Defense 
  Authorization Act--Budget Request from the Department of the 
  Navy...........................................................     1

Appendix:

Thursday, March 6, 2008..........................................    47
                              ----------                              

                        THURSDAY, MARCH 6, 2008
  FISCAL YEAR 2009 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
                    FROM THE DEPARTMENT OF THE NAVY
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Ranking 
  Member, Committee on Armed Services............................     3
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Conway, Gen. James T., Commandant, U.S. Marine Corps.............    10
Roughead, Adm. Gary, USN, Chief of Naval Operations, U.S. Navy...     8
Winter, Hon. Donald C., Ph.D., Secretary of the Navy.............     6

                                APPENDIX

Prepared Statements:

    Conway, Gen. James T.........................................   111
    Roughead, Adm. Gary..........................................    72
    Winter, Hon. Donald C........................................    51

Documents Submitted for the Record:
    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Bartlett.................................................   154
    Mr. Conaway..................................................    33
    Mr. Saxton...................................................   153
    Mr. Shuster..................................................   154
    Mr. Skelton..................................................   153
    Mr. Taylor...................................................   154

Questions Submitted by Members Post Hearing:

    Mr. Courtney.................................................   162
    Mrs. Davis...................................................   160
    Mrs Drake....................................................   160
    Mr. Forbes...................................................   157
    Mr. Ortiz....................................................   157
  FISCAL YEAR 2009 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
                    FROM THE DEPARTMENT OF THE NAVY

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                           Washington, DC, Thursday, March 6, 2008.
    The committee met, pursuant to call, at 10:05 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Ladies and gentlemen, good morning. Today our 
committee meets to receive testimony on the Fiscal Year 2009 
Budget Request from the United States Navy as well as the 
Marine Corps. Appearing before the committee this morning are: 
Honorable Donald C. Winter, Secretary of the Navy, Admiral Gary 
Roughead, Chief of Naval Operations, and General James Conway, 
Commandant, United States Marine Corps.
    We welcome you, gentlemen. And we note that our friend, 
Admiral Roughead, who has worked with us in the past, well 
before he was wearing his four stars, has allegedly liaisoned 
for the Navy.
    And we welcome you back in your different capacity on your 
maiden voyage through stormy seas of the legislative hearing.
    Admiral Roughead. Thank you, sir.
    The Chairman. But we are glad to have you.
    Admiral Roughead. Thank you, Mr. Chairman.
    The Chairman. Maritime power is a crucial component to our 
national security. It has been that way since the early days of 
our Republic. It protected us and safeguarded our interests and 
gave this nation the room to grow into the great country we are 
today.
    Your forces are forward-deployed all around the world. The 
efforts of our Marines in Afghanistan and Iraq are well-known 
and deserve the praise we give them as your sailors are ashore 
in Afghanistan and in Iraq doing things we never imagined we 
would have sailors doing, and performing magnificently, in 
particular, Army duties.
    They are busy. From stopping piracy on the high seas to 
demonstrating American presence all over the world, we know the 
Navy and the Marine Corps are on call day by day. And because 
the two services are so busy, we are going to take a hard look 
at the materials you have provided us before this hearing and 
for our deliberations.
    The Constitution is clear about our responsibilities, and 
we intend to meet that task head on. There is no question that 
the Marine Corps is seriously stretched, as is the United 
States Army. While more Marines are on the way, that is only a 
small portion of what needs to happen to keep a healthy and 
vital force.
    Marine training is heavily focused on current operations at 
the expense of training for skills not required for combat in 
places elsewhere out of Iraq and Afghanistan. There is 
equipment strain.
    Meanwhile, the Navy faces significant challenges in 
recapitalizing the fleet. We had serious discussions about this 
last year. I am concerned about the shipbuilding program. Over 
the past two years our committee has been repeatedly told that 
a stable shipbuilding program has arrived. And yet, the budget 
request this year reduces the 5-year shipbuilding goal by 13 
ships, from 60 to 47, and requests only seven ships this year.
    Furthermore, two of the three shipbuilding programs 
currently executing on cost and on schedule, the DDG-51 
destroyer and the LPD 17 amphibious assault ship, are being 
closed down. The third program, the Virginia class submarine, 
has been held at one ship per year for 8 years longer than 
originally briefed. I find it difficult to understand those 
proposed shipbuilding programs, and we would like to discuss 
that with you, Mr. Secretary.
    A bit of history--and it behooves all of us on both sides 
of this table to remember history, that it was in my lifetime 
that Congress kept the program of Admiral Rickover alive and 
supported him all through his days in charge of submarines and 
nuclear programs. And it worked, and today the Navy is the 
great beneficiary of that rather irascible gentleman. But 
Congress was largely the strong support behind him.
    In my time here I witnessed and was a very small part of 
Congress creating the Special Operations Department within the 
military. And it works well. I was a larger part of what later 
became known as the Goldwater-Nichols Act.
    These were born and raised and nurtured here in the 
Congress of the United States. Last year we made a similar 
legislative proposal, that is to create within the new cruiser 
class of ships nuclear propulsion. And I think this will be a 
major step. And people within the Navy 25, 30 years from now 
will look back and say that was a step in the right direction. 
So we hope that we can be of assistance and a breeze behind 
your back as you follow that law of last year.
    The Littoral Combat Ship has been a challenge. And I am 
sure, Mr. Secretary, you will mention that in your discussions.
    The some redeployment of 8,000 Marines from Okinawa to Guam 
is a major movement, and I would hope that, General, you would 
touch on that. I know it will be very expensive. And I know 
that the Marine Corps and the Navy will manage that undertaking 
to ensure that our strategic interests are fully protected.
    And we have a great deal of information we will need from 
you today. But most of all, we want to say thank you for the 
hard work that you do. And, Mr. Secretary, you have been an 
excellent leader. And we appreciate your working with us and 
for the American people as you do. And as you have two 
excellent colleagues, we look forward to your testimony today.
    Mr. Hunter.

    STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
    CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Hunter. Well, thank you, Mr. Chairman. And thank you 
for holding this very important meeting. And I want to join you 
in wishing good morning to Admiral Roughead and Secretary 
Winter and, of course, to General Conway.
    Gentlemen, thanks a lot for being with us. And before we 
get into the details of the budget request, I would like to--I 
know we would all like to commend the sailors of the USS Lake 
Eerie, the USS Decatur, and the USS Russell for their 
successful intercept of the disabled National Reconnaissance 
Office (NRO) satellite. These fine men and women prevented 
potential injury to innocent civilians. And their success is 
further validation of America's sea-based missile defense 
capability.
    As I have previously stated, the missile and nuclear 
developments in Iran and North Korea are a clear and present 
reminder of the need to get our nation's missile defense 
capabilities built, tested, and fielded in sufficient numbers 
and as soon as possible. I am a strong supporter of Aegis 
Ballistic Missile Defense (BMD). It has got an impressive test 
record, I believe, now of 13 out of 15. And we have got sailors 
operating this system right now. And it has also facilitated a 
close defense cooperation with key allies such as Japan against 
shared threats.
    So I am pleased that the Navy's committed operations and 
sustainment funding for Aegis BMD. However, one of my chief 
concerns is force structure. And as we look at the ledger and 
see an increase in missile threats, we are also looking at our 
force structure requirements to determine if we need more 
inventory than the current program of record.
    And that leads me back to a discussion about the Department 
of the Navy's budget request. I was pleased to see that the 
total request included approximately 5 percent real growth over 
the baseline funding request for fiscal year 2008. However, on 
further examination, the distribution of this growth in funding 
is disturbing.
    For example, there is approximately $2 billion in growth in 
research and development accounts. And while this includes 
growth in science and technology and particularly in basic 
research, for which I applaud you, it also includes over $1 
billion in R&D for the VH-71 Presidential helicopter. This 
platform was supposed to be a slightly modified cops 
helicopter. And the contract was awarded to the AgustaWestland 
team on the basis of minimizing schedule risk.
    Since its inception in 2004, the program has been 
restructured. The schedule, which was a primary focus, has been 
slipped to the right. And now the Navy is planning to spend 
over $1 billion in R&D in a single year.
    It would appear that the entire basis of the contract award 
has been nullified. And I question whether the Navy and the 
contractor team can execute this funding, given the troubled 
history with requirements growth and past performance.
    In addition, while procurement accounts grew by over $1 
billion, the shipbuilding program, gentlemen, is in shambles. 
The one piece of good news is that the budget request moves up 
to two a year construction of the Virginia class submarine to 
fiscal year 2011, a year sooner than we had previously planned.
    As we discussed in our last meeting, gentlemen, I remain 
enormously concerned about the future shortfall in our SSN 
fleet. And, you know, the QDR came up with a requirement for 50 
attack submarines. But the joint staff concluded in their 1999 
study that a minimum of 62 boats were needed by 2025. And they 
recommended a force level of 76.
    The 2001 QDR validated a 55-boat requirement. So while the 
2005 QDR was solid on the subject, the Navy concluded in 2006 
that only 48 SSNs were needed. The latest requirement has been 
generated on a basis of a lot of questionable assumptions such 
as increased operational availabilities for SSNs in the future 
due to a reduced maintenance backlog.
    It is also based on the assumption that meeting--and I 
thought this was a critical piece of information that was 
derived from the submarine hearing we had a couple of years 
ago. The information that flowed from that hearing was that we 
are only meeting 54 to 65 percent of critical mission 
requirements or high-priority mission requirements for 
submarines.
    And, gentlemen, the acceptance of this 48-boat fleet 
basically presupposes or assumes that meeting just a little 
more than half of our high-priority requirements, which were 
testified to by the Navy, is not being met with the level of 
subs that we have right now, that that is okay, that that is 
acceptable. And if you place that against the backdrop of the 
Chinese now outbuilding us 3.4 to 1 in submarines in production 
and if you add on top of that the keylow submarines that they 
are acquiring from the Russians, you now see a 5 to 6.1 
advantage in terms of production of new boats.
    And some of them that the Chinese are building are going to 
be high-performance nuclear attack submarines. Some of them 
will be diesel subs, but still, with high capability.
    So I understand that our submarines are highly expensive. 
We broke the $2 billion mark a long time ago. But I think this 
is a critical aspect of the Navy's ability to project sea 
power. And, gentlemen, we are going to have to figure this one 
out because I think the 48-boat requirement is clearly being 
outstripped and outdated. And I know you have come up with a 
number of mitigating factors. But I think even when you place 
those mitigating factors against the size of the fleet, we have 
got a deficiency.
    I know you also have stated that both platform mix and 
numbers count right now when we are going to the submarine end 
of the ship numbers. But I think it is clear that the 313-ship 
level that you established, Admiral Roughead, has got to be the 
absolute minimum for our ships.
    There is another aspect to the troubled shipbuilding 
program. From fiscal year 2008 to fiscal year 2009, the Navy 
has reduced the number of ships to be procured by about 25 
percent. So that makes that 313-ship level very, very difficult 
to attain.
    And while I support such relief for the Department of the 
Navy, the Navy's shipbuilding plan is based on the assumption 
that over the next 30 years the shipbuilding account will 
nearly triple in size. And, gentlemen, I am afraid that is not 
realistic. And therefore, you don't have a plan that is 
realistic.
    I think we need to start making tough decisions and have an 
honest dialogue about how much risk we are assuming. For 
example, is it prudent to buy destroyers that cost over $3 
billion, and more likely $5 billion, a piece while we shut down 
stable, more affordable production lines such as the LPD-17 
when we haven't bought out the requirement and while we could 
also modify this design to reduce the risk of other new 
classes?
    The same question could be posed for the T-AKE, two of 
which were taken out of the future year's shipbuilding request. 
And why are we building or buying more Littoral Combat Ships 
the year after we canceled two of them and the year in which 
the Navy plans to conduct an operational evaluation and down-
select of LCS-1 and LCS-2?
    And finally, I understand that the Navy is seeking a waiver 
to the statutory requirement for 11 aircraft carriers, which we 
reached as a compromise a little more than a year ago. I find 
it hard to believe that the Navy could not have foreseen the 
retirement of the Enterprise at that time.
    And while I understand that extending the operational 
availability of the Enterprise will be costly, it seems overly 
optimistic to state that we will dip to 10 carriers for only 2 
years. In point of fact, if first of class CVN-78 delivers on 
time, the gap will be 33 months, nearly 3 years.
    Also, the Government Accountability Office (GAO) has 
reported that the Ford is encountering delays in technology 
development that could affect its delivery schedule. Therefore, 
the period of time during which only 10 carriers are 
operationally available will likely be longer than 33 months.
    According to a December 2006 Department of Defense (DOD) 
report on the Ford's progress, that carrier is scheduled to 
reach initial operational capability in September 2016, which 
would result in a total gap in operational availability of 45 
months. Even after this milestone, there normally is additional 
time between operational readiness and the time a carrier makes 
its first deployment. The average interval between 
commissioning and deployment for all Nimitz class carriers was 
nearly two years. And no carrier since the Vincent, which first 
deployed in 1983, has deployed within one year of its 
commissioning date.
    What I am beginning to conclude is that the Navy is not 
committed to 11 aircraft carriers. And I fear that granting 
such a waiver will provide tacit approval for the Navy to 
further degrade its power projection capabilities.
    So we have got a lot of really difficult choices. And this 
really is a crossroads year for the Navy. I recognize that 
there is other budgetary pressures such as the unanticipated 
repairs required for the P-3 fleet, necessary increases in 
aviation procurement, the restructured expeditionary fighting 
vehicle program, and the rising cost of Operation and 
Maintenance (O&M).
    So, Mr. Chairman, I look forward to an open dialogue with 
our witnesses today, with our leadership for the Navy, and 
regarding these important matters. And we understand that we 
are fighting a war in a couple of theaters. We have got a 
horizon that we have got to look at with respect to the 
challenges of the future. And we have got, once again, limited 
resources.
    But I think this is a time to regroup, gentlemen, and take 
a look at the programs and the priorities and perhaps make some 
dramatic changes. Thank you very much.
    And, Mr. Chairman, I look forward to the testimony.
    The Chairman. Mr. Hunter, thank you very much.
    Secretary Winter, welcome again.

  STATEMENT OF HON. DONALD C. WINTER, PH.D., SECRETARY OF THE 
                              NAVY

    Secretary Winter. Thank you very much, Mr. Chairman. 
Chairman Skelton, Congressman Hunter, members of the committee, 
thank you for the opportunity to appear before you today. I am 
here to present the Department of the Navy's plan to support 
our sailors and Marines in their mission to defend our nation 
against current and future challenges.
    The President's Fiscal Year 2009 Budget will assist the 
Navy and Marine Corps in accomplishing their complementary and 
reinforcing missions, while building capabilities necessary to 
meet future threats. One of the primary responsibilities of our 
government is to provide for the nation's defense. Those 
responsibilities include the critical requirements to organize, 
train, and equip our naval forces.
    For the vast majority of citizens, the only cost imposed on 
us is financial. America is able to provide for their national 
defense with such a minimal impact on the citizenry because we 
are blessed to have among us a generation of people, patriots 
all, who volunteer to serve. They are the ones who bear many 
hardships, accept many risks, and go in harm's way.
    The pay and benefit funding levels in our 2009 budget 
request reflect the compensation levels necessary to continue 
to attract and retain quality personnel in the Navy and the 
Marine Corps. Furthermore, although we are doing well in our 
overall recruiting and retention numbers, I emphasize the need 
for special pays and bonuses to meet critical subspecialty 
needs such as our requirements for nurses, physicians, and 
global war on terror (GWOT) stress communities such as 
explosive ordinance disposal personnel.
    It is because of the hard work of our sailors and Marines 
that we are making progress fostering maritime security, 
defeating terrorist networks, progressing toward a stable Iraq, 
supporting the Afghan government, countering piracy in the 
proliferation of deadly technology, rendering humanitarian 
assistance, and strengthening partnerships around the world. 
Our sailors and Marines have responded when called and superbly 
performed their many missions in our Nation's defense. It is 
truly an honor and a privilege to work with them and support 
them as their Secretary.
    The Department of the Navy's Fiscal Year 2009 Budget meets 
the challenge of resourcing the Navy and Marine Corps team 
across a range of missions from partnership building to combat 
operations. It invests in our ability to operate, sustain, and 
develop forces that are engaged in the global war on terror 
while preparing the force for the challenges and threats of the 
future.
    We are requesting a total of $149 billion, a 7 percent 
increase over the fiscal year 2008 baseline. This increase is 
driven by factors such as rising oil costs and the critical 
comprehensive growth of the Marine Corps.
    Our Fiscal Year 2009 Budget reflects three key priorities 
which are consistent with those of previous years. They are, 
first of all, prevail in the global war on terror; second, take 
care of our sailors, Marines, their families and particularly, 
our wounded; and last, prepare for future challenges across the 
full spectrum of operations.
    To help meet our first priority, prevail in the GWOT, we 
are adapting our force for current and future missions to 
include growing the Marine Corps, shaping the force by 
recruiting and retaining the right people, and addressing 
critical readiness needs. Among our most critical readiness 
needs is the ability to train our sailors and Marines for the 
threats that they may encounter.
    Unfortunately, our Navy has encountered increasing 
encroachments in our ability to conduct critical training. We 
recognize that there are on occasion impacts to the citizenry 
at large associated with such training. But these are necessary 
costs that are critical to the defense of our nation. We take 
extensive precautions to minimize the impact of our training.
    We owe it to the American people and we owe it to those who 
serve to acknowledge that, as in all things in life, there are 
competing interests and tradeoffs and that we treat the risks 
of sonar operation at sea or the impact of jet noise the way we 
treat all public policy issues, balancing risks and costs 
against legitimate national security interests.
    I greatly appreciate the support this committee provided us 
last year with respect to Marimar Air Station, thereby ensuring 
that our naval aviators can continue to receive vital training. 
I commit to you today that I will continue to keep you apprised 
of legal challenges and their implications for readiness that 
we face over the course of the coming year. Mr. Chairman, if in 
the future we are unable to properly train our sailors and 
Marines, we will have failed to do our duty to them and to the 
American people.
    Another critical issue I would like to highlight concerns 
doing right by those who go in harm's way. As Secretary of 
Defense Gates has stated, apart from the war itself, we have no 
higher priority than to take care of our wounded. Our wounded 
warriors and their families deserve the highest priority care, 
respect, and treatment for their sacrifices. Our 2009 Budget 
honors our commitment to ensure that our sailors and Marines 
receive the appropriate care, training, and financial support 
that they need.
    Finally, to meet the challenges of the future, the 2009 
Budget provides for a balanced fleet of ships, aircraft, and 
expeditionary capabilities with the fighting power and 
versatility to carry out blue, green, and brown water missions 
wherever called upon. Furthermore, I would like to note that 
consistent with our commitment to ensure affordability and 
timely delivery of capabilities, we have launched an 
Acquisition Improvement Initiative to provide better 
integration of requirements and acquisition decision processes, 
improve governance and insight into the development, 
establishment, and execution of acquisition programs, and 
formalize a framework to engage senior naval leadership.
    Mr. Chairman, I am grateful for the strong support this 
committee and the Congress at large has given to our Navy and 
Marine Corps team. I want to thank you on their behalf. Our 
Navy and Marine Corps are a strong, capable, and dedicated 
team. I appreciate the opportunity to represent them today. And 
I look forward to your questions.
    [The prepared statement of Secretary Winter can be found in 
the Appendix on page 51.]
    The Chairman. Thank you very much, Mr. Secretary.
    Admiral Roughead, welcome.

     STATEMENT OF ADM. GARY ROUGHEAD, USN, CHIEF OF NAVAL 
                     OPERATIONS, U.S. NAVY

    Admiral Roughead. Thank you, sir. Chairman Skelton, 
distinguished members of the Committee, on behalf of our 
600,000 sailors, Navy civilians, and families, thank you for 
your support and the opportunity to appear before you today. 
Together with Secretary Winter and General Conway, I am 
privileged to be part of this leadership team committed to our 
nation's safety, security, and prosperity.
    Today your Navy stands ready with the agility, the 
flexibility, and the competence to do what no other navy in the 
world can do. Three weeks ago we successfully and temporarily 
converted a portion of our sea-based ballistic missile defense 
program to engage a failing satellite. Sea-based ballistic 
missile defense is here. It is real, and it works.
    But that is only part of what your Navy delivers to the 
nation. We are exercising our new maritime strategy every day, 
a strategy that is far more than just a glossy brochure. Our 
carriers are anchoring and projecting power in the Arabian 
Gulf.
    Our combatants are present, demonstrating our resolve in 
the Mediterranean. An amphibious ship is engaged in counter-
piracy operations on the East Coast of Africa. And another is 
delivering humanitarian assistance to West Africa.
    Our frigates are intercepting drug traffickers in the 
Caribbean Sea. And our riverine forces are patrolling vital 
infrastructure on the Euphrates River in Iraq. And our 
submarines patrol silently around the world.
    We have 118 ships and over 58,000 sailors on deployment out 
and about doing the work of the nation. But as you so well 
know, our operations come at a cost to our people, current 
readiness, and the future fleet. And those are my three areas 
of focus.
    Our people--our sailors and Marines and their families know 
they have your support. We must continue to invest in their 
futures and in the young men and women of America who will 
follow in their wake. As a nation at war, our utmost 
responsibility is to our wounded warriors. I am proud of and 
committed to the safe harbor program which has dedicated staffs 
and teams individually tracking and meeting the needs of those 
heroic sailors and their families.
    In the context of this generational war, however, investing 
in the health of our force must go further. The health care 
that we provide, especially for traumatic brain injuries and 
post traumatic stress disorder, as well as the President's 
support for childcare, hiring preferences for spouses, and 
family education benefits will bring welcome relief to the 
military families that assist us in the very challenging 
recruiting and retention environment. Likewise, increasing the 
throughput of the U.S. Naval Academy is an important investment 
in our future leadership, especially as U.S. Marine Corps end 
strength grows.
    But supporting our future force cannot be done without 
readiness to fight today. To this end, quality shore 
installations, responsive depot level maintenance facilities, 
and unfettered ability to train responsibly are necessities. 
Where area access and shore support is denied, the commandant 
of the Marine Corps and I have been moving forward with a sea 
basing alternative. These elements are essential to support our 
fleet response plan, which has enabled us to meet requirements 
and will sustain us through the requested temporary carrier 
force level adjustment.
    Of my three focus areas, building tomorrow's Navy to be a 
balanced, appropriately-sized force is the most immediate 
imperative and challenge. Fiscal realities, however, have led 
us to assume more risk in shipbuilding, ship operations, and 
weapons. Achieving the 313-ship floor at current funding levels 
will require us to improve processes, collaborate with 
industry, and make difficult decisions in the near-term.
    I am pleased that the first two DDG-1000 contracts have 
been awarded. Our surface combatants are an essential element 
of our force, and it is important that we do not raid the 
combatant line as we build to 313 ships.
    I remain strongly committed to funding those programs that 
provide critical capabilities to our forces. There is no 
substitute for the Littoral combat ship in closing the Littoral 
capability gap. Current F/A-18 Hornets are needed to assuage a 
2,016 strike fighter shortfall. Surface combatant superiority 
will be maintained through DDG-51 modernization.
    Multi-mission maritime aircraft will capitalize our 
maritime patrol anti-submarine warfare capabilities. And sea-
based ballistic missile defense will ensure future theater and 
national defense and enable access.
    These critical programs for our future fleet require 
appropriate disciplined investment now. The 2009 budget and its 
associated force structure plans will meet our current 
challenges with a moderate degree of risk. Clearly, we have 
many challenges, of which building tomorrow's fleet is the 
greatest.
    But with these challenges is our opportunity to have a 
fleet which will defend the Nation and assure our prosperity 
for generations to come.
    On behalf of our sailors, our Navy civilians, and our 
families, thank you again for the opportunity to appear before 
you today. And thank you for your support of what we do today 
and what we will do tomorrow. And I look forward to your 
questions.
    [The prepared statement of Admiral Roughead can be found in 
the Appendix on page 72.]
    The Chairman. Thank you, Admiral.
    General Conway.

  STATEMENT OF GEN. JAMES T. CONWAY, COMMANDANT, U.S. MARINE 
                             CORPS

    General Conway. Thank you, sir. Chairman Skelton, 
Congressman Hunter, and distinguished members of the committee, 
I have pledged to always provide you with forthright and honest 
assessments of your Marine Corps. And I bear that in mind as I 
report to you today on the posture of our service.
    In my written statement I provided you a list of priorities 
that would enable your Corps to best serve our nation's 
security interests, both today and in the uncertain future. But 
in brief, young warriors in combat are my number one priority. 
These magnificent patriots have been extremely effective in 
disrupting insurgents and the al Qaeda in the Al Anbar 
province.
    In the spirit of jointness, I must note that it hasn't just 
been Marines. It is Marines, soldiers, and sailors, a composite 
effort that over time has brought success in the Al Anbar.
    We are still supporting the surge in Iraq, and I have 
already shifted from population protection to transitioning 
security responsibilities to Iraqi Security Forces. And they 
are actively stepping up to the task.
    Though it may not be our core competency, Marines have 
addressed the Nation building aspect of our duties with 
enthusiasm and determination. In answer to the most recent call 
from the Secretary of Defense, we are also deploying more than 
3,400 Marines to Afghanistan. Your Marines will assist a joint 
force in either gaining or maintaining momentum there. We fall 
in on our expeditionary ethos of living hard and fighting well 
as part of an air/ground team.
    I just returned from a visit to Iraq and Afghanistan. And 
ladies and gentlemen, I am pleased to report to you that your 
Marines are demonstrating an amazing resiliency in the face of 
multiple deployments to dangerous lands. In spite of a one-to-
one deployment to dwell regimen that has virtually no chance of 
getting better until the fall, the factors that we track 
monthly to determine the health of the force--and those include 
desertion and U.A. rates, suicide, divorce, child or spousal 
abuse, and, of course, retention and reenlistment rates--are 
all as good or better than they were in 2001.
    Quiet in their duty in determining their approach, your 
Marines are telling us loud and clear that wherever there is a 
job to be done, they will shoulder that mission with 
enthusiasm. They are tough, and they will do what it takes to 
win.
    Our captains, though pushed hard by our deployment rate, 
are making the decision to stay with us. Our retention for 
these company-grade officers is above historic averages and 
continues to be better in the years preceding Operation Iraqi 
Freedom.
    We do have a significant issue with our families, however. 
Simply put, they are proud of their contributions to this war, 
but they are tired. We owe it to these families to put our 
family service programs onto a wartime footing. For too long 
our programs have been borne on the backs of volunteers, 
perhaps acceptable during peacetime, but untenable during a 
protracted conflict.
    The Congress has been exceptionally supportive in enabling 
us to make good on the promises to do more. Of course, we look 
beyond today in our obligation to the nation. And we have 
learned lessons of trying to build the force as we fight it. In 
response to a clear need, we are growing the Corps to 202,000 
Marines. We do this without lowering our standards, and we are 
ahead of our goals.
    During the last fiscal year, we needed to bring aboard or 
retain 5,000 additional Marines. We actually grew 7,000 
additional troops, over 96 percent of them high school 
graduates.
    But more than just manpower, this growth requires training, 
infrastructure, and equipment to meet the needs of the country. 
You have helped us meet those requirements with steady support 
and encouragement. And for that we certainly thank you.
    The Marine Corps retains the mission to provide a multi-
capable force for our Nation, a two-fisted fighter, if you 
will, able to destroy enemy formations with our air/ground team 
and major contingencies, but equally able to fall back on our 
hard-earned irregular warfare skills honed over decades of 
conflict. By far the most complex of our congressionally 
mandated missions, amphibious operations, require deliberate 
training and long-term resourcing to achieve a high level of 
proficiency. The operational expertise, special equipment sets, 
and amphibious lift are not capabilities that we can rapidly 
create in the face of a threat.
    Finally, on behalf of your Marines, I extend a great 
appreciation for your support thus far and thank you in advance 
for your supports on behalf of these brave servicemen and women 
in harm's way. I assure you that the Marine Corps appreciates 
the increasing competition for the nation's discretionary 
resources and will continue to provide a tangible return for 
every $1 spent. Thank you, Mr. Chairman.
    [The prepared statement of General Conway can be found in 
the Appendix on page 111.]
    The Chairman. General, thank you very much. I understand 
that we have two votes pending in the chamber. However, we will 
continue and get as many as possible in. And we will ask you to 
have patience with us while we rush to the floor and vote those 
two votes.
    I have a couple of questions.
    Admiral, you may wish to consult with your folks before 
answering this question. But I can come back to you on this in 
a few moments. But how much money do you need each year for the 
313-ship plan? And how much money do you currently have 
budgeted this coming year?
    Admiral Roughead. Sir, this year we have just over $14 
billion in the shipbuilding plan.
    The Chairman. Right.
    Admiral Roughead. That is down from $15.8 billion. And as 
we go out into the outyears, that number begins to approach 
about $20 billion a year.
    The Chairman. Then answer my first question. How much money 
do you need each year to meet the 313 ships?
    Admiral Roughead. Mr. Chairman, the plan that we have 
submitted takes us to a level of 313 ships by about 2019.
    The Chairman. 2019?
    Admiral Roughead. Yes, sir. That is when we cross into the 
313-ship range, given the plan that we have presented.
    The Chairman. That is a long way, Admiral.
    Admiral Roughead. Yes, sir.
    The Chairman. There is the issue of the individual 
augmentees. I would like to ask each of you gentlemen how 
individual augmentees being used effects the readiness of the 
Navy on the one hand and the Marines on the other when those 
augmentees are utilized outside their core competency or 
outside the general Marine mission.
    Admiral.
    Admiral Roughead. Yes, sir, the Individual Augmentee (I.A.) 
program that we have in place and the contributions that we are 
making to our ground forces in U.S. Central Command (CENTCOM), 
I believe, has made a significant difference. I have visited 
there, met with several of our I.A.s and their commanders. And 
they cannot say enough about the skill, the talent, the 
competence, and the drive that our young sailors take to their 
new mission.
    When we make our individual augmentee assignments, we look 
at what we are providing to the joint force in Central Command. 
But we also look at what that does to individual unit 
readiness. And we have been able to balance that. I would also 
add that those young men and women who come back and rejoin 
their units bring a perspective and a commitment to mission 
that I believe is beneficial to the Navy.
    The Chairman. General.
    General Conway. Sir, individual augments in the Marine 
Corps do essentially two things. One is provide manpower and 
expertise to various headquarters, particularly warfighting 
headquarters that need that Marine presence. Or more likely, 
they serve as training teams, either military training teams or 
police training teams or perhaps border training teams.
    We have made every effort to draw red lines and not draw 
these training teams (T.T.s) from our recruiting establishment, 
our recruit training establishment or our schools. We think 
that the seed corn is terribly important.
    However, what that means is that they are then for the most 
part drawn from operational units or from some of our 
supporting establishment who sorely needs the leadership that 
these people represent. Those T.T.s for the most part are staff 
non-commissioned officers (NCOs) or mid-grade to senior-level 
officers. So stripping away that sort of top tier of leadership 
hurts every unit because we do not have excess of those people 
assigned to the units.
    The Chairman. Thank you.
    Jim Saxton.
    Mr. Saxton. Thank you.
    Let me just first follow up on the chairman's question 
about the road to the 313-ship Navy. Isn't it true that over 
that period of time you would need another $35 billion in your 
program in order to achieve that goal?
    Admiral Roughead. I would like to get back to you on the 
exact figures, Mr. Saxton. But when we built our program this 
year, if you noticed when we submitted our report to the 
Congress, different than in years past, we considered a near-
term part of the report and a far-term because of our greater 
confidence in the cost closer to where we are today. But I will 
get back to you on the additional monies that may be required.
    Mr. Saxton. Okay. Fair enough. Thank you.
    [The information referred to can be found in the Appendix 
beginning on page 153.]
    Mr. Saxton.Mr. Secretary and Admiral, I think we can all 
agree that there continues to be a growing threat of ballistic 
and cruise missiles used by China, Iran, and others. We have 
been told repeatedly that the time development and development 
of the next generation of cruisers critical to meet these 
threats. So my question is this. Given the continuously 
successful test results of the Aegis missile defense system, 
whose most recent successes include the U.S. Navy Aegis ship 
shooting down the errant satellite, isn't it more sensible and 
cost-effective to build additional Aegis destroyers to address 
these emerging threats in the near-term and accelerate the 
development of CGX rather than spending whatever the number is, 
$3 billion to $5 billion a copy, on DDG-1000?
    And I might just add this. I think there are great 
reservations among the members of this committee about the 
current plan for DDG-1000, given the thought process involved 
in the other issues that are immediately related to it that I 
mentioned in my question.
    Admiral Roughead. Yes, sir. The DDG-1000 and the two ships 
that we have put on contract within the last couple of weeks 
introduce into our Navy some very important technologies and 
means for us to look at those technologies as we move forward, 
particularly to be informed on the CGX. The one that is most 
important to me is the reduction in crew size. It is the first 
ship that we have designed and will build with such a small 
crew for that amount of capacity.
    The Aegis BMD fleet that we have in place today and our 
plans to grow the existing fleet, I believe, addresses 
something that will become very important, as you have pointed 
out. But, you know, for the program that we have up here for 
fiscal year 2009, my main concern is that we do not, in 
interest of other types of ships, go after our combatant lines 
and disrupt that effort that we have underway in our 
combatants. Because I consider the combatants to be the most 
problematic area that I am dealing with in the Navy right now.
    Mr. Secretary, any comment?
    Secretary Winter. Relative to the CGX program, as I believe 
you are aware, we are in the middle of AOA, the analysis of 
alternatives, which leads us into one of our major internal 
gate reviews within the Department of the Navy. We are focused 
right now on a number of mission-specific issues there that 
revolve around, in particular, the radar system on that vessel, 
the size of it, the capabilities that it must provide, and also 
future growth potential that we have to make sure we protect in 
the development of that ship.
    I think that the process that we are going through right 
now is a good one. Recognize it does take a certain period of 
time to resolve these issues. But I think it is important to 
lay the groundwork for the future.
    Mr. Saxton. Mr. Chairman, may I just reserve a couple of 
minutes when we get back to follow up?
    The Chairman. Absolutely. We have about four minutes to 
make this vote. And we will take up, Mr. Saxton, two minutes, 
and then we will go to Mr. Ortiz. We will recess for that.
    [Recess.]
    The Chairman. We will resume and take up where Mr. Saxton 
left off.
    Mr. Saxton.
    Mr. Saxton. Thank you very much.
    Admiral, understanding that the first two DDG-1000s were 
placed under contract just a couple of weeks ago, I believe, 
far later than was originally planned--in fact, I think the 
original plan was to place them under contract in the second 
quarter--in the third quarter of 2007. And we ended up getting 
it done in the second quarter of 2008, quite a slip.
    What would be the impact of a strategic pause in the 
procurement of the third DDG-1000, which is in this year's 
budget request and instead using those funds to procure 
additional DDG-51s and possibly to accelerate the development 
of CGX technologies? This could allow the Navy to also gain 
additional costs and schedule performance data for the DDG-1000 
before committing to buying a third. And I think you made some 
good points about wanting to reduce crew size and developing 
the capability to do that.
    Certainly, we can do that in DDG-1001 and two and use the 
resources that we might use on a postponed DDG-1003. Shipyards 
have said that they could resume construction of DDG-51s 
relatively easily. And so, this looks to me to be a common 
sense alternate route for us to take. What do you think if we 
postponed the DDG-1003 until 2009 or 2010?
    Admiral Roughead. Mr. Saxton, as you began your question, 
what would be the impact of doing that, and as you understand, 
there are many facets, and it is a fairly complex question that 
I would like to take for the record, if I may.
    Mr. Saxton. But would you agree that, at least, that it is 
a common sense, logical alternative?
    Admiral Roughead. I believe that being able to ensure that 
our combatant capability and capacity that we can maximize that 
is something that I believe needs to be looked at because the 
force structure that we have--and as I mentioned, we don't get 
to 313 until 2019--capacity becomes a capability unto itself. 
And I am always looking at ways to make sure that we have the 
capability and capacity that we need.
    Mr. Saxton. Sure.
    Admiral Roughead. And I will defer to the Secretary as 
well.
    Mr. Saxton. Well, if you want to take it for the record, 
that is fine. But I would hope that you would get back to us in 
a relatively short period of time because obviously whatever 
plans we decide to make relative to authorization and later 
appropriation, we need to have your thoughts, which are very 
important to us in a relatively short period of time, if that 
is possible.
    Admiral Roughead. Yes, sir. Yes, sir.
    Secretary Winter. Congressman, I would note that the delay 
that you referred to was associated with the definitization of 
the contract, not with the start of the contract. We have been 
maintaining the course and speed in terms of the actual 
contract activity. We went through a rather extensive 
negotiation process to ensure that we understood all of the 
cost and schedule issues associated with that program and 
definitized the contract fairly recently.
    The activity has been going on. We effectively have a 
hiatus year in 2008 inasmuch as the contracts were started 
previously in a dual-lead ship approach. And I am very mindful 
of the need to be able to maintain the course of activity, not 
only to ensure that we are able to get the ships to the fleet 
as needed, but also to avoid any unnecessary pertivations to 
the industrial base, which I view as very fragile and in need 
of consistency in terms of effort.
    [The information referred to can be found in the Appendix 
beginning on page 153.]
    Mr. Saxton. Mr. Chairman, thank you very much.
    The Chairman. Thank you.
    Mr. Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman.
    Mr. Secretary, Admiral, General, thank you so much for your 
service to our country. We certainly appreciate it.
    Like the Army, to meet current demands, the Marine Corps 
has drawn from prepositioned stocks around the world. These 
stocks are vital to our rapid deployment capability. Last week 
the Secretary of the Army spoke to the risk that has been 
assumed in the Army's response time by the consumption of 
prepositioned stocks coupled with the delay in replenishment 
and the strain of current operations.
    General Conway, how much equipment has been drawn from the 
Marine Corps prepositioned stock? And at what percentage are 
they currently filled? And what is the plan and the timeline 
for restoration of the free stocks that we so definitely need? 
And what level of risk has been created by the downloads of 
these stocks? And maybe you can enlighten, not only me, but the 
committee.
    General Conway. Yes, sir. Sir, first of all, roughly 
speaking, about 25 percent of our equipment is in the central 
region, either in Iraq or in some cases, perhaps soon to be 
Afghanistan. With regard to our prepositioning stocks, aboard 
the ships and in the cave in Norway, we have MPS-1 that is 
currently in retrofit right now. And it is roughly 40 to 50 
percent of its capacity is there.
    We used it to draw down to provide equipment to the new 
forces that we are creating. MPS-2 was used to draw down for 
Operation Iraqi Freedom (OIF). And it is at about 50 to 55 
percent capacity. A lot of the equipment, when it is 
retrograded from Iraq, will be evaluated and put back aboard 
that ship.
    MPS-3 is at 100 percent. And it is available for tasking 
worldwide.
    In the caves, we are at about 40 to 50 percent again at 
this point in terms of equipment sets. There is some risk, of 
course, associated with that. What we find is that we are not 
able to fully fit out our battalions who are in the states with 
the full table of equipment sets. We have to go to what we call 
training sets in order to be able to allow them to function 
when they are home on their dwell period and to prepare 
themselves to go to Iraq.
    One technique or one methodology that is fairly 
dramatically different from what the Army is experiencing, 
though, is that we leave our equipment in theater, by and 
large, both with regards to the battalions and the squadrons. 
And each successive rotation simply falls in on that gear.
    Now, some of that gear is cycled out because it gets worn 
pretty hard and put away wet in some cases. So we have sort of 
a fresh infusion either of new equipment or of replacement 
equipment as it wears out. But that is an ongoing effort that 
our people have been able to manage fairly effectively over the 
last couple of years now.
    Mr. Ortiz. Because if I can remember correctly, when the 
Army testified before our committee, they told us that it would 
take at least until about the year 2011, maybe 2012 to restock 
the prepositioning elements that we have out there. You know?
    General Conway. Yes, sir.
    Mr. Ortiz. And it takes time to build. It takes time to 
refit. And I am just concerned, you know, with what I have seen 
and where we are at.
    General Conway. Yes, sir. Sir, I think it is really hard to 
provide you a date and time to say we will be well by this date 
certain because it is a dynamic. We are wearing equipment out 
even as we sit here today in discussion in Iraq and, again, to 
be in Afghanistan. We don't know exactly when the crisis is 
going to end.
    I think what we have agreed to with the Army is that there 
will probably need to be at least a couple of years of what we 
would call reset monies to be able to determine where we are, 
what is needed, and either repair old equipment or buy new 
equipment if we are at that plateau.
    Mr. Ortiz. And one last question. You know, I am concerned 
with what I have been reading and seeing on TV. And I am just 
wondering, should we be concerned with what is happening in 
Central America now with, you know, the potential conflict 
there with Columbia and Ecuador and Venezuela? And is this 
something that we should worry about?
    General Conway. Well, of course, sir, I think any time you 
have got nations with friction, it is cause for concern. Not 
being the international expert here in the crowd, I would 
simply refer back, I think, to what our boss said recently, 
Secretary Gates, in that he does not see any immediate concern 
for conflict there.
    Mr. Ortiz. And the reason I worry about this is because it 
is right in our own backyard.
    General Conway. Yes, sir.
    Mr. Ortiz. Thank you. My time is up.
    Thank you so much, Mr. Chairman.
    The Chairman. Okay.
    Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    Gentlemen, excuse me for stepping out there during your 
testimony, Mr. Secretary. Let me ask you. And maybe this 
question has been asked. But the Navy plan for 313 ships 
includes 11 carriers. Is that right?
    Secretary Winter. Yes, sir.
    Mr. Hunter. But right now you have got the current plan 
that also generates a strike fighter shortfall of about 125 
aircraft in the 2017 timeframe. Is that right?
    Secretary Winter. We are still reevaluating that based on 
the service life assessment program, which is going to be 
coming out here in the next couple months.
    Mr. Hunter. Okay. But if, in fact, that occurs, that your 
current plan is followed, that is 125 aircraft. You have got 
about 44 aircraft per carrier airwing. So we are really talking 
about three carrier airwings of being short three carrier 
airwings, are we not?
    Admiral Roughead. Mr. Hunter, the Navy, the blue portion of 
the strike fighter shortfall, is 69 airplanes. But what it 
really does for us is it hampers our ability to generate the 
airwings at the pace that we need for the fleet response plan.
    Mr. Hunter. Yes, the 125 includes the Marine Corps.
    Admiral Roughead. That is correct, yes, sir.
    Secretary Winter. Yes, sir.
    Mr. Hunter. Well now, but again, if you are even 69, you 
have got basically a one and-a-half carrier airwing short, 
right?
    Admiral Roughead. Right.
    Mr. Hunter. Is that another way of saying that you think we 
don't need to have 11 carriers?
    Admiral Roughead. No, sir, not at all. What it says is that 
based on our inventory, the ability for us to generate the 
number of ready carriers and airwings will be affected by this 
drop. And that is why I have highlighted that because we have 
found in recent years that our fleet response plan, the way 
that we have been able to operate the carriers, has really 
allowed us to have much more striking power, much more 
responsiveness to events around the world than we had even a 
few short years ago.
    So as we go into our fiscal year 2010 budget, that is going 
to be one of the top things that we will be working on. I also 
think that it is important as we look toward the Joint Strike 
Fighter that any delays in that program could have the 
potential to exacerbate that strike fighter shortfall.
    Mr. Hunter. Yes, well, I understand that. And that may well 
be a problem that you have got. Do we have the ability to 
increase the production line of the Es and Fs if we have to?
    Admiral Roughead. I believe the ability is there to do 
that. But again, we want to be able to take a look at our 
assessment of our current Hornets and then fold in potential 
solutions as we prepare our Fiscal Year 2010 Budget.
    Mr. Hunter. Okay.
    And last, Mr. Secretary, I think it is important for us to 
look at this very strong production and acquisition of 
submarines that China's undertaking and that this very static 
model that we have got or plan that we have got going up even 
to two boats a year is going to provide us with a very limited 
force. And I will tell you what really jumped out at me was 
when the committee kind of dragged out of the Navy after a lot 
of consternation this figure as to your warfighting commanders 
in the Pacific, your submarine commanders who are requesting 
boats, requesting submarines for missions and the fact that 
while you met, I think, the critical missions--you met all the 
critical missions--they only met between, I believe it was, 56 
and 65 percent--we only had enough submarines for between 56 
and 65 percent of high-priority submarine missions.
    That is a lot. That is a big gap. And it doesn't appear to 
me that we have any--even mitigating this shortage with your 
operational changes, it appears to me we are still going to 
have a major gap in the long-term.
    And we are going to have other nations out there that are 
producing robust fleets of submarines. And we are now shackled 
with these very high costs in excess well above $2 billion per 
attack boat and yet, with a real requirement that we are going 
to have to meet. Any thoughts on that?
    Secretary Winter. Well, sir, a number of items there. First 
of all, relative to the immediate issue, as I think you are 
aware, we have gone through a reallocation of our submarine 
fleet, our attack fleet, 60/40 split, with 60 percent of that 
now being in the Pacific to adapt the fleet and ensure it is in 
the approximate area where we see the principle threats. We are 
going through a series of activities to ensure that they are a 
higher availability provided by the fleet in terms of working 
the individual maintenance availabilities there and improving 
their deployability.
    We are also going through a series of activities to reduce 
the cost of future submarines, as you are aware, putting in 
significant new design efforts on the Virginia class, redoing 
the entire bow section here shortly to be able to continue to 
drop the cost of that boat down further. That said, I am 
pleased that we are able to accelerate one additional boat here 
in a most recently submitted budget. It was a bit of a squeeze 
and a little difficult to do, but I think it was on balance the 
right thing to do.
    Mr. Hunter. Okay. Just a last question then.
    Admiral Roughead, maybe you can answer this. When we did 
this hearing on subs here a couple of years ago and we 
extracted from the Navy this fact that you couldn't get up to 
any more than 65 percent of high-priority missions being filled 
with subs--and we had more than we have now when you add that 
number. Can you assure the committee that you can get up, with 
the factors that the secretary has just described, that you can 
get even to 75 percent of high-priority missions being filled 
with submarines over the next 4 to 5 years, even a 75 percent 
mission fulfillment?
    Admiral Roughead. If I may, Mr. Hunter, I was the commander 
in the Pacific, and I relied very heavily on my submarines to 
meet the missions that we had there. And as you pointed out, we 
met all of the critical missions. And our submariners do 
absolutely unbelievable work, and much of which is things that 
we don't talk about in a venue like this.
    Mr. Hunter. Yes.
    Admiral Roughead. But the missions that come in are 
missions that are generated every year. So to be able to say 
what percentage of the changing requirements by the combatant 
commanders will be, I am not sure that we know what is going to 
be out there.
    But that said, our addressal of all of the critical 
missions and the high-priority missions of which I had insight 
into and was responsible for apportioning the submarines, I was 
very comfortable with where we are, not just for those 
missions, but also any responses that we had to provide for our 
submarine force. I was comfortable with that.
    That said----
    Mr. Hunter. But now, Admiral, you missed 40 percent of the 
missions that you requested submarines for if you were running 
the subs at the time that these numbers were generated. It was 
that you were missing between 35 and 45 percent of what you 
classified as----
    Admiral Roughead. No, sir, not what I classified. These are 
the worldwide combatant commander missions that we were dealing 
with.
    Mr. Hunter. What the Navy classified as high-priority 
missions they didn't have enough submarines for. And so, I 
think it is important for us to develop a plan where we can 
meet high-priority mission requirements. And I think that when 
you say, well, we never know where the requirements are going 
to go, the implication of your question is something wonderful 
may happen and they may go down.
    I don't think in that part of the Pacific where we are 
shifting some attention now the requirements are going to 
reduce over the next 5 to 10 years. Do you see that for 
submarines?
    Admiral Roughead. In the Pacific, as we have done, we have 
moved more submarines to the Pacific. We have based our 
submarines more forward in Guam.
    Mr. Hunter. Why don't we try to have--maybe get a 
classified answer, Mr. Chairman, for the committee as to what 
percentage of these high-priority missions can now be fulfilled 
as a result of these adjustments, at some point.
    Admiral Roughead. Yes, sir.
    Mr. Hunter. Thank you, Mr. Chairman.
    The Chairman. Without objection, please do.
    Admiral Roughead. Okay.
    Mr. Hunter. If you could do that, that would be great.
    The Chairman. Before I call Mr. Taylor, let me express a 
concern and ask, Mr. Secretary, if you would get back to us at 
a later moment on the record for this. I am concerned that the 
military to civilian conversion in the Navy medical community 
is included in the 2009 budget.
    However, last year there was a prohibition in the law of 
military to civilian conversions and extends until 2012. And I 
am not quite understanding that situation. Would you get back 
to me on that on the record later?
    Secretary Winter. We would be pleased to, sir.
    The Chairman. Thank you.
    [The information referred to can be found in the Appendix 
beginning on page 153.]
    The Chairman. Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    And, Mr. Secretary, Commandant, Admiral, thank you very 
much for being here. First off, let me thank all of you for 
your cooperation in trying to get wounded warriors to the 
Merchant Marine Academy as instructors and coaches. And I hope 
that becomes the norm for all of our military academies.
    You know, we have tried for a couple of years to work with 
systems integrators, and that didn't work out very well. The 
Navy is taking it back in-house. And I am, for one, frustrated 
with how slowly things have been developing.
    So, Admiral, I am going to turn things around, and we are 
going to--maybe the Seapower Subcommittee is going to become a 
true systems integrator that is accountable to the taxpayers 
and the voters. Having said that, I am intending to propose to 
the subcommittee that money be included to upscale a DD-51 hull 
large enough to carry the nuclear A-1B power plant. And that 
would be the CGX.
    We would limit the number of DD-1000s to two. We would 
continue the 51 line and go to the nuclear cruiser sooner. And 
I would like to hear your thoughts on that. Rather than waiting 
for you all to come to a proposal to us, we are going to make 
that proposal to you. And I would like to hear your thoughts on 
it.
    Second, going back to Mr. Hunter's concerns--and they are 
very valid concerns--about some rumor of the Navy going down to 
10 carriers. I would think a flat request to go from an 11-
carrier task force to 10 would probably be dead on arrival with 
this committee.
    On the other hand, a very good point has been made that you 
spend about $2 billion to get an additional 2 years out of the 
Enterprise. So if an alternative proposal was made that rather 
than spending $2 billion to get an additional 2 years out of 
the Enterprise that you would spend that $2 billion building a 
large-deck amphib or an additional submarine or the first of 
the nuclear cruisers, well then, we might have something to 
talk about.
    And I think several members of this committee might feel a 
little differently at that because tomorrow never seems to get 
here when we say we are not going to buy it this year, but we 
will get to it. Tomorrow just never seems to get here. It 
certainly hasn't in the case of the Littoral Combat Ship (LCS).
    So I would like to hear your thoughts on those two things. 
I would also very much like to remind the commandant that I am 
very much aware that your number one unfunded request is the 
LPD and that we would hope the Marine Corps does its very best 
to convince the Senate of the importance of that program. We 
passed it through this committee last year. The appropriators 
came through.
    Admiral Roughead. Sure did.
    Mr. Taylor. We didn't get much help out of the Senate. 
Again, I would hope that you would use your arts of persuasion 
to get them onboard with that very worthwhile request.
    Admiral Roughead. Yes, sir.
    Mr. Taylor. Commandant, I am going to go back to the 
proposal I made to you and let you tear up my ideas for a 
change.
    Admiral Roughead. Yes, sir. Mr. Taylor, I always appreciate 
your ideas and recommendations, particularly as they apply to 
shipbuilding because I know that you spent a great deal of time 
studying it and looking for the best way for us to get to our 
common goal, which is to have more ships in our Navy.
    But with respect to the Enterprise funding being used for 
ship construction, the problem that we have right now is that 
the $2.2 billion that we would spend on Enterprise is going to 
have to come from something already. So that is one of the 
reasons why the----
    Mr. Taylor. If I may, Admiral. If this committee continues 
to tell you you have to do it, then you would have to identify 
that something.
    Admiral Roughead. Right.
    Mr. Taylor. So if you have got to identify that something 
anyway, then I would think--and you have concerns about 
spending $2 billion just to get another 2 years out of one 50-
year-old ship, then I would think a very reasonable alternative 
to give to this committee--which a number of members have 
expressed their concerns about the fleet getting too small. You 
have expressed your concerns about not having enough 
combatants--is to come back and say let me spend that money on 
a combatant that I will get 30 years out of.
    Admiral Roughead. Sir. And I just might add that the $2.2 
billion really is 7 months of useable service of the carrier.
    Mr. Taylor. Okay. We are making the case even better.
    Admiral Roughead. So it does become a little bit 
problematic to be able to move money that we don't have.
    Mr. Taylor. But at the moment, it is your problem.
    Admiral Roughead. Exactly. And I am not deflecting that at 
all.
    With regard to upscaling the DDG-51 to a nuclear ship, I 
have commissioned and have served as a commanding officer of 
the DDG-51. I am not a Marine architect or a Marine engineer or 
a naval architect. But I am not sure that that hull form can 
upscale to that. And I think that----
    Mr. Taylor. I have got the red light. What I need from you 
is the cost estimate from Admiral Sullivan what it would cost 
to make that determination.
    Admiral Roughead. Right. I will do that.
    Mr. Taylor. And how quickly that determination can be made 
so we move things along.
    Admiral Roughead. Yes, sir, I will do that.
    Mr. Taylor. Okay.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Bartlett.
    Mr. Bartlett. Thank you.
    I would just like to note that the chairman of our 
subcommittee has his ranking member's support for these issues.
    Gentlemen, thank you all very much for your service. It is 
supporting you in that service that is a large part of the 
reason I keep coming back here in my 82nd year of life. Thank 
you so much for what you do for your country.
    It is often overlooked that helicopters are an essential 
factor in the Navy's ability to project force around the world. 
For instance, they are involved in search and rescue, medical 
evacuation, anti-mine countermeasures. And wouldn't it be nice 
if they could be involved in swapping the mission packages on 
the LCS at sea so it doesn't have to steam to port to do that?
    As all of you know, several members of this committee have 
been concerned for some time that the Navy's necking down of 
business strategy before 9/11, by the way, has left a gap in a 
critical range of vertical lift capability. I have argued for 
some time that the Navy should invest in a robust heavy/medium 
lift helicopter that will provide greater capability than the 
H-60 alone at far less cost than the super-heavy MH-53, which 
is several years off, of course.
    For instance, the 60 is really compromised in search and 
rescue. It does not have the range or the dwell time. It is 
really compromised in medical evacuations. It just isn't big 
enough for any meaningful airborne emergency room.
    It is compromised in anti-mine countermeasures because of 
the way it must tow. And it is just not big enough to swap off 
the mission packages on the LCS. As a matter of fact, it is my 
understanding that it has already failed two of these critical 
missions.
    Admiral Roughead, I shared these concerns with you recently 
in a private meeting. You assured me that fleet forces command 
is currently studying this very issue. Would you share with the 
committee some specifics of this study? What is its scope? Is 
it a broad, across the enterprise analysis? When will the 
results of the study be available to the committee?
    I have here a presentation you made at--the service made at 
3 October, 2007 subcommittee hearing. And you have a timeline 
there that says that this report was going to be available 
November of last year. Just when will it be available? Does the 
study look at the cost and capability benefits of available 
platforms outside the Navy's current inventory, including how 
these aircraft could be integrated into a future fleet that 
includes the LCS and sea basing? Thank you.
    Admiral Roughead. Sir, what the fleet forces command has 
been asked to do is to determine whether there is a need for a 
medium lift helicopter. It was driven in part by your interest 
in our helicopter fleet and where we are going, but also from 
the standpoint of trying to look ahead in the future to 
determine what some of the logistics requirements are going to 
be, the weights of things, for example, such as the engines for 
the Joint Strike Fighter.
    Those are things that we looked ahead and said, you know, 
let us take a look and see if there is a need for a medium lift 
helicopter. And that is what they are doing. And that study is 
to inform us as we develop our Fiscal Year 2010 Budget.
    Mr. Bartlett. If the 60 has already failed two of these 
critical mission tests, isn't that adequate justification to 
seriously look at a medium lift helicopter? It is true that it 
has in preliminary tests failed, has it not?
    Admiral Roughead. Sir, I am going to have to look into 
that. The reports of failures have not been made to me. And I 
will get back to you on this.
    [The information referred to can be found in the Appendix 
beginning on page 154.]
    Mr. Bartlett. Thank you. Well, we are very concerned that a 
legitimate business model that was put in place prior to 9/11 
is now committing us to a future where our helicopters neck 
down to just one. I join later on several years from now by the 
huge 53, which is too big for a--mission--the most costly per 
hour plane we fly, I think, is that big helicopter.
    And we are concerned that this legitimate business model 
that made sense prior to 9/11 with the commitments that we now 
have just really compromises us. And we feel that this needs to 
have a new look and to put in that long spectrum of priorities. 
And we think that it just comes high enough to the top that we 
really do need a medium lift helicopter. You just can't do 
search and rescue and medical evacuation, anti-mine 
countermeasures missions or LCS at-sea swap-off with the 60, 
can you?
    Admiral Roughead. That is what we are looking at, sir, is 
what do we need for the future. I would say that our 60, our 
fleet of 60 helicopters and the men and women who fly and 
operate those helicopters do an incredible job for our Navy in 
areas such as Anti-submarine Warfare (ASW), search and rescue. 
We have some of our squadrons that are flying med-evacs in 
combat conditions ashore. So the 60 helicopter is a good 
airplane. It is serving us well.
    The fact, though, that we wanted to look into the future 
and see what the medium lift requirements would be and what 
investments we would have to make--that is what has prompted 
the tasking to fleet forces command.
    Mr. Bartlett. I thank you.
    Thank you, Mr. Chairman.
    Mr. Taylor [presiding]. The chair recognizes the gentleman 
from Arkansas, Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman.
    And, gentlemen, thank you for being here. And thank you for 
your service.
    General Conway, yesterday Admiral Fallon was here, the 
CENTCOM commander. And in response to questions, I think, from 
both Ms. Sanchez and Mr. Thornberry he said that he needed 
2,000 more troops. In addition to the 3,200 Marines that you 
are in the process of deploying, he said he needed 2,000 more. 
Do you have the ability to give him 2,000 more troops?
    General Conway. No, sir, we do not. This employment of 
3,400 Marines into Afghanistan will keep us at what I would 
call ``surge plus'' from about, later this month, March through 
May until such time as we stand down the two battalions of 
surge forces in Iraq and they are not replaced. That will put 
us then at eight battalions committed on through October. That 
keeps us at a surge rate through that period of time where we 
can expect no better than a one-to-one deployment to dwell.
    Dr. Snyder. Secretary Winter, we have had a lot of 
statements made over the last several years that we will 
respond to the folks on the ground about what they need. 
Admiral Fallon's testimony sitting right there--he needs 2,000 
more troops. Does it concern you we don't have the ability to 
find those 2,000 more?
    Secretary Winter. Well, sir, that is a matter of total 
force management that involves all of the services. And I think 
that the Marine Corps has been growing its force to be able to 
build to the increasing demand.
    Dr. Snyder. Those are all good statements. I agree with 
that. My question was does it not concern you we don't have the 
ability to meet this very specific need expressed here. He 
needs 2,000 more troops today in addition to the 3,200.
    Secretary Winter. I recognize the need.
    Dr. Snyder. It concerns me.
    Secretary Winter. I recognize the desire. I also hope that 
we are able to get additional support from our coalition 
partners in Afghanistan.
    Dr. Snyder. General Conway, we had a discussion here 
yesterday with Admiral Olson on the special forces. And there 
seems to be a fairly vigorous discussion going on within the 
Army about who should be responsible ultimately for foreign 
internal defense, the general purpose forces or their special 
operations forces. What is the status of that discussion within 
the Marine Corps?
    General Conway. Sir, of course the MARSOC, the Marine 
component to Special Operations Command, is about equally 
divided between what we call shooters-the MARSOC companies that 
have routine deployments, and we have one right now in 
Afghanistan--and groups that do foreign internal defense, 
companies that will do that for abolos. Beyond that, as a part 
of our growth to 202,000, we have examined the need for what we 
call a MCTAG, a Marine Corps Training and Advisory Group that 
could be as much as 1,500, maybe a couple of thousand Marines 
that would give us that foreign internal defense kind of 
employment capability in the outyears.
    We have not stood that organization up yet. We have only 
stood up a cadre of about 43 staff NCOs and officers to start 
to man it up.
    In the meantime, I have agreed with Admiral Olson and 
General Casey and now we include General Mattis at the Joint 
Forces Command that there needs to be a discussion on who 
intends to do what. It is somewhat of a growth industry. We 
realize that there is probably going to be a need in the 
outyears. The question becomes who does it and to what degree.
    The last thing I want to do is spend a couple of thousand 
of Marines to create a capability who will then sit waiting for 
the phone to ring. We have better use for those people if, in 
fact, there is not an agreed upon need on the part of the force 
providers and at least one combatant commander who would be 
involved in the employment of those forces.
    Dr. Snyder. My last question, General Conway, is you have, 
I think, handled yourself very well in your discussions about 
whether you think Marines ought to participate in Iraq or 
Afghanistan. You have had a tremendous number of troops 
overseas. Based on the experience you have had so far as 
Commandant, where do you see language skills, foreign language 
skills fitting into this whole--well, you have got the long war 
sending the Marines. My question is how many of these Marines 
should be sent in with very high levels of foreign language 
skills.
    General Conway. Sure. As you understand completely, you 
don't grow those people in a short period of time. What we have 
done is focus on the fact--and back to your last question. 
Those types of people, people who would deploy to assist third 
world nations, are going to need some element of language 
skills.
    The 3,400 Marines that are going into Afghanistan are going 
to take over 120 interpreters and interrogators with them. So 
there is obviously a need to be able to fit into the culture 
and understand what is being said about you either through 
individual language skills on the part of your servicemembers 
or through help that we can gain from different locations.
    But we are working on it, it certainly is fair to say. Our 
language center at Quantico is emphasizing to our young 
lieutenants that you need to pick a language, one of four that 
we will most likely find in probable deployment areas. We have 
got language instructors at our command and staff college. So 
we are making an across the board effort really to enhance 
language skills where we have previously been weak.
    Dr. Snyder. Thank you, gentlemen.
    Mr. Taylor. The chair recognizes the gentlewoman from 
Virginia, Ms. Drake.
    Mrs. Drake. Thank you, Mr. Chair.
    Gentlemen, thank you very much for joining us today.
    And, Secretary Winter and Admiral Roughead, I was wondering 
if you could give us an update on the status of the 
Environmental Impact Statement (EIS) for Mayport and looking at 
the nuclear capability if that is something we want to look at 
and also, the financial analysis that we asked to go along with 
that. So can you just give us an update, where we are, when we 
expect any of that?
    Secretary Winter. Yes, ma'am. We are proceeding along the 
regional schedule. We expect to have the draft EIS out for 
public comment here in a matter of about a month or so. It is 
working through its final stages of development. And I expect 
that that will get us into the next phase of activity, getting 
the public comment.
    It does encompass the full range of options that we talked 
about last year, everything from no change to the current 
mission, surface combatant changes, amphibious changes, all the 
way up to and including a nuclear carrier. And it does address 
the range of environmental issues associated with that.
    We have also done some preliminary cost analyses associated 
with the investments that would be required at Mayport. Again, 
they vary significantly depending upon the specific option that 
has to be taken. We would not make that specific 
recommendation, of course, until we are able to factor in both 
the cost issues and the mission-related aspects that I will be 
looking to the Chief of Naval Operations (CNO) to provide a 
recommendation on.
    Mrs. Drake. Thank you.
    Mr. Secretary, I would also like to ask you. In your 
opening statement, you said that you needed increased authority 
to pay bonuses to doctors and nurses. In the law last year in 
the National Defense Act we authorized up to $824,000 for 
signing up for a 4-year commitment. So I was just curious if 
you could clarify for us what else you need.
    Secretary Winter. I would be happy to give you the details 
for the record, if I could, please. I think the principle 
emphasis I was trying to make was the value of those bonuses 
that we have received authority to utilize.
    Mrs. Drake. Okay.
    Secretary Winter. They are providing a significant 
difference for us. Some of them take a little bit more time to 
effect the value out. The scholarship programs, in particular, 
are in that category. But I would note that we are getting some 
very good benefit out of all of those.
    We are approaching that period of time where students in 
medical school make their major decisions in terms of 
internship or residency and actually acceptances into medical 
school as well. Once we see the results of that, which will 
inform many of these decisions associated with future careers 
in the Navy, we will be in a much better position to be able to 
update our estimated requirements for future special pays and 
bonuses.
    Mrs. Drake. Thank you. And one last question for you 
because I think you hear from this committee all the time how 
committed we are to the 313-ship Navy. We asked for the number. 
Admiral Mullen gave us the number. And our concern has always 
been to make sure that that stays on track.
    But listening, of course, to the debate and the questions--
and this is a question I have had since I have come to 
Congress--I am sure all three of you would be very happy and 
welcoming if we could figure out how to give you more money to 
make sure it stays on track.
    Secretary Winter. Yes, ma'am.
    Mrs. Drake. It boils down to that.
    Secretary Winter. It does boil down to that. I would note 
that if you take a look at our 30-year shipbuilding plan, where 
we are right now and the glide slope that we are on to build up 
to that, we are actually doing pretty well with one exception. 
We have had to slow down a little bit on the Littoral combat 
ship, which is a major component of that 313-ship fleet. It is 
55 of that 313.
    We had hoped to be at a higher rate of production than we 
believe that we are ready for at this point in time. That said, 
I think that the approach that we have taken, which is a more 
gradual development process, more steady development process, 
gives us a much higher degree, much higher likelihood of 
success in the overall program activity.
    We have authority for one LCS in 2008. We are seeking 
authority and funding for two additional in 2009 that will 
enable us to go out on a three-ship acquisition program, which 
will maintain the competitive base and enable us to proceed on 
course to be able to provide this critical capability which is 
uniquely needed by the Navy. And I would ask CNO to comment on 
that need.
    Admiral Roughead. As we have talked before, the Littoral 
combat ship does not replace something that we have. The 
Littoral combat ship is addressing a gap in our ability to 
operate in the Littoral regions in archipelagos, areas where we 
need shallow draft, speed, and the ability to reconfigure the 
ship for the different missions that we will undertake.
    Having commanded in the Atlantic and Pacific, getting that 
ship into the fleet is one of my highest priorities. And I have 
visited both of the ships two times in the last 8 months. And I 
remain more committed to that ship than I was when we began.
    Mrs. Drake. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Mr. Taylor. The chair recognizes the gentleman from North 
Carolina, Mr. McIntyre.
    Mr. McIntyre. Thank you, Mr. Chairman.
    And thanks to all of you gentlemen for your commitment and 
your service to our nation. We are very proud of you and your 
work.
    General Conway, I was excited, as I mentioned to you before 
the hearing, to be at the groundbreaking of Marine Special 
Operations Command (MARSOC) at Camp Lejeune a couple of weeks 
ago. We are very proud of the special forces being set up there 
at Camp Lejeune and the growth of the Marine Corps that I know 
is going to continue at Camp Lejeune. And we see that as part 
of a greater growth in Eastern North Carolina with Base 
Realignment and Closure (BRAC) and what is happening on the 
other end of my district at Fort Bragg as well.
    Secretary Winter and Admiral Roughead, we are very excited 
about your coming to Wilmington for the commissioning of the 
newest Virginia class attack submarine, the North Carolina, the 
first weekend in May. And I am sure we are going to have an 
outstanding crowd of folks there to welcome you and to show our 
pride in the Navy and the new North Carolina.
    And I want to ask you, gentlemen, if you could answer me a 
question. I know a concern about this was expressed by your 
predecessor, Admiral Roughead, and some others on the Joint 
Chiefs in the past about what is being done to counter China's 
growing fleet and what is our strategy to deal with counter-
balancing China in the Pacific.
    There has been a great concern about this kind of being, if 
you will, overlooked or ignored somewhat because of the 
emphasis we obviously have in the global war on terror and what 
is going on in Afghanistan and Iraq. But can you tell us what 
attention is being paid to the China fleet and what we are 
doing to counter-balance that?
    Admiral Roughead. Yes, sir. Having been the Pacific Fleet 
Commander and having served in the Pacific for several years, 
watching the evolution of China's navy has been of great 
professional interest to me and then obviously in my positions 
out there, of great import to the Navy. There is no question 
that China is building a navy that is increasing in 
sophistication and capacity. It is a navy that is focusing more 
on being able to influence events in the region than being able 
to move on to the global stage.
    As I watch what they are buying, what they are building, 
that is one component of watching the People's Liberation Army 
(PLA) Navy. But the other is their leadership and the expertise 
and competence of the leadership. I have had the opportunity to 
meet with several of the PLA Navy leaders. And it is clear to 
me that they have a path that they see for their navy.
    It is a path that does not necessarily end with them being 
a threat. But it is a navy that, I believe, will have greater 
influence in the Pacific and then also moving into the Indian 
Ocean regions.
    The key for us is to be able to engage with that leadership 
to gauge the intent, not only of the PLA Navy, but the PLA and 
to have a relationship that allows us to see where they are 
taking their navy and how competent that navy is. As you know, 
we have shifted force structure into the Pacific, carriers and 
submarines. But I would submit that that is not simply because 
of a rising PLA Navy.
    It is because that is part of the world, that and the 
Indian Ocean region and the Arabian Gulf, where our prosperity 
hinges on. And that is the reason why I believe a rebalancing 
of the fleet into those areas where we can respond, where we 
can be present is so important. And it is from that response 
and presence that I am committed to the 313-ship Navy because 
of our need to be able to cover the many requirements that are 
there, not simply at the high end of naval capability, but also 
to be able to work with some of the other countries.
    Mr. McIntyre. Thank you very much. Is it fair to say that 
the Navy is embracing missile defense as a core mission? I 
welcome your comments or the secretary's on that.
    Admiral Roughead. I see it as being a core mission of the 
United States Navy. We have had great success. I believe the 
shooting down of the satellite three weeks ago demonstrates the 
competence, the fact that our ballistic missile capability 
exists within our operational Navy. It is not a science project 
that has been going on.
    These are our sailors who are out there that were able to 
take on that mission, a very complex mission, and succeed on 
the first shot. I believe that with the proliferation of 
ballistic missiles around the world that ballistic missile 
defense and the flexibility that a maritime ballistic missile 
defense provides is a good solution for the country.
    Mr. McIntyre. Thank you.
    Secretary Winter. I would add that, building on the last 
point of the CNO's, that the flexibility that we have operating 
from a naval platform to be able to pick the geometry of our 
choosing has significant leverage in terms of the efficacy of 
any deployed system. When you add that to the capabilities that 
we have been able to build into the Aegis system, I think you 
have a unique and very significant way of enhancing the force 
posture of the United States.
    Mr. McIntyre. Thank you. I see my time is up.
    Thank you, Mr. Chairman.
    Mr. Taylor. The chair recognizes the gentleman from 
Arizona, Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    And as always, thank all of you for what you mean to this 
country and allowing us to sit here in peace and have these 
kinds of conversations.
    You know, Admiral Roughead, your comments and Mr. 
McIntyre's questions related to the missile defense, which kind 
of leads perfectly. I know you have been congratulated a number 
of times here today on your successful shoot-down of the 
satellite. And I just congratulate, you know, those on the USS 
Lake Eerie and the USS Decatur and the USS Russell as well.
    And I had hoped that the Shiloh would be the one that 
shoots it down because I had just toured the Shiloh in Japan 
with my friends, Mr. Akin and Mr. Larson and Ms. Tauscher. And, 
of course, it was a magnificent display.
    We have worked with Japan to see their first shoot-down in 
December themselves. I mean, I know that they have done things 
with us in coordinating it, but to do that themselves shows 
that they had a very good teacher. And so, I just can't express 
to you just how good you make a lot of us feel to be Americans 
and how proud we are of you.
    With that said, you know, Dr. Winter and Admiral Roughead 
and General Conway, I am confident that we--I believe we are 
going to win this long war related to terrorism because of, you 
know, the warriors like yourselves at the helm of the sea 
services. And I guess my concern is your ability to reset and 
prepare for the future while you are fighting and while we are 
securing the peace in that regard.
    And so, Dr. Winter and Admiral, your reset needs look to be 
about $10.9 billion, and your unfunded requirements, about $4.6 
billion.
    And, General Conway, your reset requirements look to be 
about $4.7 billion, and your unfunded requirements at about $3 
billion. And today the defense budget represents slightly--
well, significantly less than 4 percent of the gross domestic 
product and slightly more when you add the supplemental 
appropriations. But that is a historic low for our nation, even 
so.
    And so, I would ask General Conway and, well, anyone that 
wants to--but both Admiral Roughead and General Conway, I would 
ask both of you, in the long run will the defense spending set 
at a minimum of four percent of Gross Domestic Product (GDP) be 
enough to satisfy and fund all the things that you must do to 
maintain and reset the U.S. Navy.
    And, Admiral Roughead, I would start with you.
    Admiral Roughead. Yes, sir.
    Mr. Franks. Will 4 percent GDP be enough?
    Admiral Roughead. Yes, sir. I believe 4 percent is a good 
approximation and a good bar, if you will. But I also believe 
that it is important to not peg exactly to 4 percent because we 
don't know what the future holds. We don't know what the 
challenges will be to our security and our prosperity.
    And I believe what is important is that we are able to look 
at what that future is, what we believe we need to provide the 
country. And then we budget to that amount. It has a potential 
to be a double-edged sword.
    Mr. Franks. I know it does.
    And, General Conway, I will direct the question to you as 
well. I just think that, you know, what happens is there is 
always this discussion about a peace dividend after any 
conflict. And it seemed like the services always are the ones 
that are called upon to take the hit. And yet, if we are 
considered in the world as a hollow force, it costs us so much 
more in the long run.
    I mean, 9/11 cost us, hit our economy for somewhere in the 
neighborhood of $1 trillion. And it just occurs to me that, you 
know, a secure country is a very prosperous country.
    So, General Conway--and let me rephrase it as a minimum 
floor, is four percent GDP a good policy for this country, in 
your mind, sir. And will it meet the needs with obviously the 
desire to respond with higher amounts if necessary.
    General Conway. Sir, I would highlight----
    Mr. Franks [continuing]. The predictability.
    General Conway. I would highlight first of all that we are 
in war, and this is going to be, I think, a generational 
struggle. And four percent represents about half the lowest we 
have seen previously in any war in terms of portion of Gross 
National Product (GNP). My concern is that we have been treated 
very well with regard to our reset. Our total costs have 
actually exceeded over $15 billion. But the Congress has been 
very good about staying up. And we are confident about the rest 
of that.
    My concern about my particular service is that through 
delays in the Osprey and through the Expeditionary Fighting 
Vehicle (EFV) through some developmental concerns, we have a 
lot of bills coming due all at the same time here in just a few 
years. The Osprey, the EFV, the Joint Strike Fighter, the 
remands of the Cobra and the Huey. All those things are going 
to come at us all at about the same time.
    And as a member of the Joint Chiefs, I am concerned about 
the size of our Navy and about the age of our Air Force. So 
there are a lot of things out there, sir, in the future that 
are going to pressurize the amount of money that we have today. 
And I am not sure four percent will be enough, quite frankly.
    Mr. Franks. I appreciate your candor. Thank you.
    Mr. Taylor. I recognize the gentleman from Connecticut.
    Mr. Courtney. Thank you, Mr. Chairman.
    And I want to thank the witnesses for their endurance here 
today.
    Secretary Winter, I just want to attest to the fact that 
your Chief of Naval Operations is such a hands-on leader that 
he was in charge of flooding the graving dock up at Electric 
Boat about two weeks ago for the USS New Hampshire.
    Secretary Winter. So noted, sir.
    Mr. Courtney. And so far, it is still----
    Admiral Roughead. I had a good partner to do it.
    Mr. Courtney. That is right. So thank you again for your 
appearance here today.
    Following up on Chairman Skelton's comment earlier about 
the fact that Congress in the past historically has helped 
sometimes set the pace in terms of a nuclear Navy and special 
operations. I think last year's budget where the Seapower 
Subcommittee under Mr. Taylor's leadership set the pace in 
terms of an advanced procurement toward a second submarine, the 
$588 million that we were able to get through the process.
    And again, I want to thank Secretary Winter for giving us 
the roadmap in terms of how to get to that point, which, I 
think, he had to step out a little bit in terms of the budget 
that you were presenting to us at the time.
    So again, thank you for your help. But I did want to sort 
of follow up on sort of a question that is begged from that, 
which is why did the Navy decide to use that advanced 
procurement toward a 2011 two-sub a year pace as opposed to 
2010?
    Secretary Winter. Thank you for the question, sir. Really, 
two reasons. First of all, we didn't want to go to two a year 
and then back to one a year and then up to two a year, just 
afraid of the perturbation that that would create for the 
industrial base. We could not afford within the budgetary 
constraints that we are working in two additional submarines.
    Second of all, we are entering into a period here where we 
have some significant cost savings that we are starting to 
accrue based on some of the investments that have been made in 
the Virginia class program. We want to be able to affect as 
many of those as is possible.
    The new bow redesign, for example, is a very significant 
modification. I believe it is going to provide us with a lot of 
value for the future. We want to be able to take full advantage 
of those design activities and the reduction to practice on the 
overall Virginia program. And those were the two reasons why we 
put that submarine in 2011.
    Mr. Courtney. And obviously, again, Mr. Taylor has a lot of 
balls he is juggling in terms of trying to get a budget and an 
authorization through this year. Do you have any suggestions or 
ideas about ways that we can, again, take the progress that we 
accomplished last year and use it, you know, with the goal of 
reducing the construction period for the 2011 sub, again, in 
terms of what we can do this year, maybe not with as large a 
step as last year's? But again, is there a way that we can, I 
guess, keep the momentum going forward?
    Secretary Winter. Well, I think one of the areas that I am 
particularly focused on is the continuing need to be able to 
motivate the contractors to reinvest in their capital plants. 
And I think that investment in those areas provide us with 
significant long-term benefits.
    I think that the Virginia class program has been a good 
leader in that regard. I would like to see further options 
being developed in that regard. And I would also like to see 
that construct, if you will, expanded throughout the rest of 
the shipbuilding activity with some of the additional 
flexibility that we would need to be able to take advantage of 
it.
    I am also, I will tell you, having started the reevaluation 
of what we need for the SSVN class replacement recognizing that 
that is coming out a number of years from now. But that is a 
significant effort we are going to be bringing forward as part 
of the 2010 Program Objective Memorandum (POM) the initial 
phases of that activity.
    Right now it is principally an effort between Navy and U.S. 
Strategic Command (STRATCOM) to develop the overall 
requirements for that. But I think that that will also generate 
some significant pressures for a new generation, if you will, 
of submarine designers and facilitating the, if you will, 
inter-generational transfer of knowledge and experience between 
those who have helped us in terms of designing the Los Angeles 
(L.A.) class Seawolf and Virginia as well as Ohio into the next 
generation that we are going to need to be able to continue 
this effort all the way through to the Ohio class replacement, 
is going to be a critical factor.
    Mr. Courtney. My time is about to run out, and maybe we can 
follow up again afterwards.
    Secretary Winter. I would be so pleased.
    Mr. Courtney. But there was again, some of that 2009 money 
last year or 2008 money last year was for advanced funding for 
construction. And that is sort of, I guess, the question I 
would like to explore further with you about ways to, like I 
said, keep the momentum going with the advance last year.
    Secretary Winter. I will be pleased to have that discussion 
with you.
    Mr. Courtney. Thank you, Mr. Secretary.
    Secretary Winter. Thank you.
    Mr. Courtney. Thank you to the witnesses.
    Mr. Taylor. The chair recognizes the gentleman from Texas, 
Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    Welcome, gentlemen. Appreciate your service to our country.
    General Conway, one of the traditional core competencies of 
the corps is the amphibious landings opposed, I guess, under 
fire. You mentioned briefly the EFVs. And could you talk to me 
a little bit about just when is the last time we looked at--is 
that a competency that the Marine Corps really needs to have?
    In other words, over the next 20 years, do we look like we 
are going to have those kinds of fights where we would need to 
have an awful lot of money put into the gear to be able to do 
that? And then talk to us a little bit about the struggles with 
the EFV in terms of continued mission creep and adding weight 
to it and all those kinds of things.
    General Conway. Sir, let me start by saying if you have a 
visual of the Torowa landing beach, you have the wrong 
impression in mind of how we would intend to do future 
amphibious operations. We would intend to go where the Navy is 
not. We would intend to go deep across the beach with the 
Osprey. But the expeditionary fighting vehicle is a vital part 
of that.
    The Navy rightfully will not go closer than about 25 miles 
to an enemy shore because of the anti-access systems and the 
potential destruction of Marines, sailors, and ships costing 
billions of dollars. So we have to somehow bridge that 
difference.
    We have a vehicle right now that ostensibly could swim. 
Although the sea states would make that exceedingly difficult. 
But it would be four to five hours getting to shore, and 
Marines would be in no condition to fight.
    So we need that type of vehicle that can get up on top of 
the waves at 25 to 30 knots and get us quickly in to start 
doing the work that must be done. I think that there is a lot 
of blue out there on that map in the arc of instability and 
that although, you know, we have been fortunate in years past 
that there was a host nation willing to accept the buildup and 
then willing to let us cross their border.
    The probability of that being present in every case in the 
future is not likely. And so, I do think that there will 
continue to be for this superpower nation an ability to have a 
forcible entry capability.
    Mr. Conaway. Okay. But you talk about justifying the EFV. 
What are the struggles to getting it operational?
    General Conway. Sir, we have had some reliability concerns. 
I fault our service. I fault the vendor for doing reliability 
tests on vehicles, six vehicles, that were already past their 
service life expectancy. So I personally don't believe that the 
program or the vehicle that is associated with the program is 
in as bad shape as perhaps those tests might represent.
    The Secretary of the Navy--and I hope you will comment, 
sir--has been very active in trying to look at stimulation and 
making sure that we have got the right model for the vehicle as 
such. But I tend to believe that the program is substantially 
back on track, delayed some. And that makes me uncomfortable 
because we need it today. But nevertheless, it will be the 
vehicle of our future.
    By the way, sir, if I could add, I am going to China at the 
end of the month. I will ride on one of their new amphibs and 
come ashore on their EFV.
    Secretary Winter. Sir, just a build on the Commandant's 
comment there. When we went through the initial evaluation 
phase late last year--excuse me, early last year--the EFV 
passed a vast majority of its required objectives. The one area 
that, as the Commandant pointed out, we had some significant 
problems had to do with the reliability. This is a fairly 
complex vehicle. It has a number of systems, a number of 
potential failure points.
    We made the decision that rather than to proceed into 
production with a vehicle that might pose problems in terms of 
maintaining that vehicle and providing the availability on a 
seaborne platform, that we would enter into a period of time 
where we would make an investment to design for reliability, to 
go through and analyze the vulnerabilities from a reliability 
perspective on the platform, to make the changes that are 
needed and to ensure that we have a design which is both 
reliable and maintainable before we go into production.
    I believe we are making very good progress in that regard. 
We have a preliminary design review coming up here very shortly 
this spring and a critical design review that will follow that.
    Mr. Conaway. Okay. I had one other real quick one, Mr. 
Secretary, and a follow up for the General. You mentioned that 
he said the six that were tested were beyond their useful life, 
which I will get back with you on understanding how we had 
something that is being tested that has already worn out. But 
to get to 313 ships, how many new ships does that--I mean, do 
we decommission any of the current fleet to get to the 313? How 
many total new ships does that represent?
    General Conway. As we drive to 313, it is a combination of 
those that we are building and as ships reach the end of their 
life, they come out.
    Mr. Conaway. Right.
    General Conway. It is important that we get our 
modernization program in place.
    Mr. Conaway. Well, just 39 is different. Is that just the 
total number of new ships that will be built between now and 
2019?
    General Conway. I will get back to you on the exact because 
it is a mix of going away, coming in.
    Mr. Conaway. Okay.
    [The information referred to was not available at the time 
of printing.]
    The Chairman [presiding]. I thank the gentleman.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    General Conway, I want to know what that ride is like.
    General Conway. It is actually surprisingly smooth, sir.
    Mr. Larsen. If you could get back to us about the Chinese 
EFV, that would be great.
    General Conway. Yes, sir.
    Mr. Larsen. Thanks.
    [The information referred to was not available at the time 
of printing.]
    Mr. Larsen. Secretary Winter and Admiral Roughead, I would 
give you a heads up on my question. If you could let the 
committee know the answer to the question, and now I will 
preface it.
    The Navy and the Air Force had an Memorandum of 
Understanding (MOU) that expires in, I think, 2012 with regards 
to the use of your expeditionary airplanes for radar jamming. 
And that MOU goes to 2012 with the assumption that the Air 
Force is going to follow up, I think, and have a stand-off 
jammer in place. That is not going to happen. And this 
conversation is about where the Air Force is going with the 
core component jammer in this next generation jammer. 
Conversation is going on between Navy and Air Force.
    But the question is what happens at 2012 and we have got 
the airwings, we have got the carrier-based prowlers, soon to 
be prowlers, which are already high-demand, low-density. And 
yet, it is the capability that we have, that the military has. 
I think the concern is that it is going to be higher demand and 
lower density post 2012 until such time as an answer for the 
Air Force. What happens between 2012 and that time when the Air 
Force gets an answer about their jamming capabilities?
    Secretary Winter. Well, sir, let me try to go through the 
status here right now. We are dependent on the EA-6Bs. That is 
the only electronic attack mechanism we have right now in 
theater. They are being used very extensively. They are doing 
extremely well. But we are concerned about replenishing them on 
schedule, given the service life limitations that we see on 
that platform.
    The build that we have put forward, which includes 22 
Growlers in this year's budget in addition to the five that we 
requested in the 2008 supplemental, is all based on what we 
think is the appropriate glide slope to replace the EA-6Bs and 
also based on the latest analysis that says that we need a 
total fleet of 84 Growlers to be able to accomplish the 
mission.
    I will note that that analysis was based on the 
presumption, as you noted, that the Air Force was able to 
provide a stand-off jammer capability of their own to 
supplement those Growlers. One of the things we will be looking 
at as part of the POM 10 development here in the next few 
months is to ensure that we understand what the Air Force plans 
are or are not and to ensure that we take that into account in 
terms of any necessary change to the fleet sizing for the 
Growlers in the future.
    Mr. Larsen. So I could summarize it, first off, I do not 
want to put the Air Force on the spot. We have talked to the 
Air Force about this as well. It is a broader issue in the Air 
Force about recapitalization and the available resources they 
have to do what they want to do. So I want to appreciate their 
problem.
    But to paraphrase, you said that at some point--right now 
you are looking at and at some point you will have to make a 
decision about whether 84 Growlers or 85 Growlers or 86, 
something greater than 84 might be necessary to address the 
full mission needs of the radar jamming capabilities of the 
military.
    Secretary Winter. Yes, sir. And I do believe we will make 
a--we will take a crack at that as part of the 2010 POM.
    Mr. Larsen. You will.
    Admiral Roughead.
    Admiral Roughead. Yes, sir, exactly right. And as you know, 
our electronic attack is being used in ways we never 
envisioned.
    Mr. Larsen. Right.
    Admiral Roughead. And I believe it will be important as we 
go into the 2010 POM that there be a realization of what that 
usage is likely to be and how the joint force comes at it. It 
will be important.
    Mr. Larsen. Thanks. And one more question. Your number one 
unfunded priority is P-3 wings.
    Admiral Roughead. Yes, sir.
    Mr. Larsen. Can you discuss the current status then of the 
P-3s and what dollar amounts you are looking for and how you 
are addressing the current fact that you have grounded, what, a 
third or so of the P-3s?
    Admiral Roughead. Yes, sir. The grounding actually accounts 
for about a quarter of the fleet and about a quarter of the 
operational P-3s that we have out.
    Mr. Larsen. Okay.
    Admiral Roughead. What has happened is we have been putting 
a lot of hours on those airplanes. They are beyond their flight 
life. But because we have been able to monitor the usage, we 
have a good sense of what the work will entail. We estimate 
that in 2008 we will need $364 million and then in 2009, $312 
million to fix that.
    Mr. Larsen. So, just to clarify, $364 million and the rest 
of 2008, presumably you are requesting that in supplementals?
    Admiral Roughead. Yes, sir. Yes, sir, we will.
    Mr. Larsen. And then $300 and----
    Admiral Roughead. $312 million in 2009.
    Mr. Larsen. In 2009? And that is not in the budget.
    Admiral Roughead. No, sir, that is not.
    Mr. Larsen. Thank you.
    The Chairman. Thank the gentleman.
    The gentleman from South Carolina, Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary, Admiral, General. I 
appreciate your service so much. I am particularly grateful 
that I have a son who is serving in the Navy. And he was 
trained by Admiral Roughead. So I am very grateful for this. 
And indeed, our family is grateful that he has had the 
privilege of serving with our troops in Iraq.
    Additionally, I am very grateful that I represent Parris 
Island, the Marine air station, the Buford Naval Hospital. We 
have got wonderful facilities with wonderful people and a 
community that truly loves persons of military service.
    Additionally, last weekend--I want to give you a firsthand 
report--I had the privilege of visiting with our Navy and 
Marine personnel in Iraq and Afghanistan and also at Landstuhl. 
It was incredible.
    In Iraq I had the opportunity, General, to ride my first 
MV-22. It was like a rocket. And I just want to commend all of 
you for your persistence in perfecting the Osprey and what it 
means for the protection of our troops.
    We went to Fallujah. I was with the Marines as we were able 
to walk the market at Haditha where through interpreters 
citizens thanked the Marines for liberating them and keeping 
them safe. It was really a heartwarming experience.
    In Afghanistan I had the opportunity to visit with Navy 
personnel who I am really grateful are serving with Provincial 
Reconstruction Teams (PRTs). We were in Osadabad. The Navy 
lieutenant there was just bursting with pride at the bridge 
that he is building there. And it just made me proud. And I 
agree with Congressman Franks. We are going to win the war 
against terrorism.
    I spent my whole life being told that we could not defeat 
Communism. But we did. And I have the same feeling of what you 
are doing today.
    As we prepare, also in Iraq, I had the privilege of riding 
in an Mine Resistant Ambush Protected (MRAP) Cougar. And what a 
phenomenal vehicle that is.
    And, Mr. Secretary, I note that at Spaywar they now are up 
to about 1,000 a month that they can process with the 
government-configured equipment. Is this now a working system? 
I want the MRAPs to our Marines as quickly as possible.
    Secretary Winter. Well, sir, thank you for the question. I 
think we have gone a long way to building up the industrial 
base to support the MRAP production and deployment. That 
includes not only a number of manufacturers that have been 
producing the basic vehicle, but, as you noted, the Spaywar 
activity that is integrating the government-furnished 
equipment, the communications navigation gear and all the other 
specialty equipment that goes onto those vehicles.
    I think we are now at a very good production rate. And we 
are actually shipping a large number of them on a weekly basis. 
We fully expect that we will be able to meet the buildout 
objectives that have been established by the joint force. The 
Marine Corps is in particularly good shape, given the recent 
adjustments in terms of the requirements that have come 
forward.
    We still have a ways to go as the joint service provider of 
this equipment to satisfy some of the Army requirements. And we 
are endeavoring to do that.
    Mr. Wilson. And, General Conway, the Marine Corps, we are 
very grateful, trains more than half of its recruits at Parris 
Island, including all the women who serve in the Marine Corps.
    General Conway. That is right, sir.
    Mr. Wilson. We welcome more. And, in fact, with fiscal year 
2009 adding 5,000 more Marines with additional Marines, is 
there anything that we of this committee need to do to help 
with infrastructure at Parris Island? Or what is the status?
    General Conway. Sir, we feel pretty good about it. When I 
was visiting there last, we talked about extending some of the 
old barracks that were there, that are there that we thought 
would be torn down. I think we are probably going to extend 
their life cycle then. But they are suitable barracks. They 
will serve a good purpose.
    Where we need additional structure, and that will be during 
the summertime, of course, when we are training our high school 
graduates, we may need some temporary additional structures. 
But that money is laid in and is being provided for.
    Mr. Wilson. Well, I want to assure you for the facilities 
we have, we have the right climate in South Carolina, 
meteorologically. And the people are warm. So you are welcome 
to expand. Thank you very much for your service.
    General Conway. Thank you, sir.
    The Chairman. Thank the gentleman.
    The gentlelady from Guam, Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman. And thank 
you for including the importance of the military buildup on 
Guam in your opening statement.
    Mr. Wilson, you can have a few Marines, but we want the 
rest, the most of them. And we have warm climate and hospitable 
people in Guam as well.
    Secretary Winter and Admiral Roughead, I want to thank you 
for your testimony this morning and your leadership at the helm 
of the Department of the Navy.
    And, of course, welcome to General Conway. You know that 
our community is actively preparing and planning to welcome an 
increase in the Marine Corps presence over the next 5 to 6 
years.
    Leadership from military commanders on our island is very 
critical for the success of the civilian/military partnership 
and ultimately, the overall military buildup. And I want to let 
you know that Admiral French is providing strong leadership as 
the commander of the naval forces, Marianas. I have a few 
questions, though, this morning regarding the prioritization of 
Guam initiatives and projects within the Navy's budget and at 
the decision making level inside the Pentagon.
    Secretary Winter, I am concerned about the level of fiscal 
year 2009 Military Construction (MILCON) funding requested for 
Guam. The President's budget has programmed $169 million of 
military construction work, which is about a 26 percent 
decrease, decrease in military construction spending on Guam 
over fiscal year 2008 levels.
    In conversations with officials from the Joint Guam Program 
Office and the Naval Forces Engineering Command, it was 
understood that Guam has significant construction capacity 
constraints. And as such, the military construction funding 
would need to be ramped up in the years prior to the bulk of 
the realignment projects to avoid challenges and pressures in 
the future.
    I was surprised at this year's decrease in the funding in 
the President's budget request. So I would like to have you 
comment on this. And if the Navy decreased its military 
construction dollars, was there an effort to work with the Air 
Force to ramp up their construction dollars since they have a 
nearly $700 million unfunded requirement at Anderson Air Force 
Base?
    Their environmental impact statements are complete for the 
bulk of these projects. Is that an issue that would be 
coordinated through the Joint Guam Program Office? And if these 
projects are not better addressed and if there is not more 
balance across these MILCON budget requests, I am afraid the 
departments are setting themselves up for a pressure situation 
and a failure in some aspects.
    The construction capacity is limited, and significant 
activity at both installations is going to be difficult to 
manage all at one time in the outyears without a gradual ramp-
up. We don't want delays. So I would appreciate your comments 
on this situation.
    Secretary Winter. Well, thank you for the question, Madam. 
Relative to the overall buildup activity, as you know, our 
principle effort right now is in two areas, one of which has to 
do with the development of the joint military master plan for 
Guam, and the other is to develop the environmental impact 
analyses that go along with it, which give us the authority to 
be able to do construction.
    We are still roughly two years away from the completion of 
that environmental impact study. And so, our ability to do any 
construction activities that are tied to that particular effort 
to the move of Marines from Okinawa to Guam is very limited at 
this point. We are endeavoring to complete out all the other 
activities in an appropriate course of speed.
    The three activities that constitute the mainstay of the 
$160 million that you refer to include the modification of the 
peer, the infrastructure investments for waste water treatment, 
and I believe some barracks' enhancements as well. Those are 
all part of what had previously been approved and is part of 
our planned program.
    We are going to continue to try to work that, and we are 
going to continue to try to make this as smooth as possible a 
transition. But we are limited by the current law relative to 
what we can do prior to the completion of the Environmental 
Impact Statement (EIS) that encompasses all of the construction 
activities associated with the move of the Marines.
    Ms. Bordallo. So what you are saying then, Mr. Secretary, 
is that we should see large increases by 2010, 2011 after the 
EIS is completed?
    Secretary Winter. Yes, ma'am. Once the EIS is completed--
and we will be programming for that completion in the 
appropriate time period--then we will be able to lay in the 
construction activities appropriately.
    Ms. Bordallo. I have another question for you, Mr. 
Secretary. Just last week, the President's Interagency Group on 
Insular Areas, known as the IGIA, convened for its annual 
meeting here in Washington. Following the IGIA meeting, the 
Guam Interagency Task Force met to discuss their progress on 
various aspects affecting the military buildup on Guam.
    And the charge of this task force is to work across the 
spectrum of Federal agencies to help our government validate 
and identify Federal funding sources to prepare for the 
military buildup. However, many of our local leaders, myself 
included, are frustrated by these meetings because while many 
issues have been identified, little action has been taken to 
date by the group by the way of a resolution or a roadmap for 
budget support as we go forward.
    So can you, please, comment on what steps the Department of 
Navy is taking to address these concerns? And are these 
concerns being raised to higher levels with the Department of 
Defense or even at the Cabinet level?
    Secretary Winter. Well, thank you, ma'am.
    The Chairman. Please answer the important question.
    Secretary Winter. Thank you, sir. I recently met with 
Secretary Ken Thorne, who has the responsibility for the 
interagency coordination. We are working together to be able to 
escalate this matter up to appropriate principles--level 
discussions within the interagency. And I fully expect that we 
will be successful in getting the level of attention that the 
matter requires.
    Ms. Bordallo. Thank you. Mr. Secretary, you know, we truly 
need to work as partners in this buildup. And like I say, I 
have a massive job here to work between the Federal Government 
and the local government. And so, we would certainly appreciate 
any cooperation that you can give in this respect.
    Also, on the EIS question----
    The Chairman. The gentlelady's time has expired. There will 
be a second round in just a moment.
    Ms. Bordallo. Second round? Okay.
    The Chairman. The gentleman from Pennsylvania.
    Mr. Shuster. Thanks, Mr. Chairman.
    Good afternoon. A couple quick questions.
    Mr. Secretary, there is an 11th and 12th T-AKE in the 
budget. The Congress funded the 11th T-AKE last year. Why are 
you asking for money again for the 11th T-AKE?
    Secretary Winter. Sir, what transpired is as we had to 
restructure the T-AKE program to reflect some significant 
increases in raw materials that had driven the cost of the 
earlier T-AKEs up. We used the funds that had been appropriated 
in fiscal year 2008 to complete the----
    Mr. Shuster. How much money was that, sir?
    Secretary Winter. I would have to get back to you on the 
specific dollars.
    [The information referred to can be found in the Appendix 
beginning on page 154.]
    Mr. Shuster. I understood it was like about $225 million. 
So you used that money for cost overruns?
    Secretary Winter. That was used for two purposes, one of 
which was to complete the funding on T-AKE 10 and also to 
initiate the advanced procurement activities on T-AKE 11.
    Mr. Shuster. Sir, my second question is that in this fund, 
the National Sealift Defense Fund, you are able to move this 
money around, contrary to if you buy a ship in the other funds. 
My question, I guess, is you have an amphibious assault ship in 
the National Defense Sealift Fund (NDSF) funding. It is the new 
Maritime Prepositioning Force Future (MPFF) ship. For all 
intents and purposes, it is an LHA.
    The Senate Armed Services Committee SASC staff had 
recommended, said that this was against U.S. code to place this 
vessel, because it is a combat vessel, into the NDSF fund. And 
it should be placed in the regular shipbuilding procurement in 
a sense so that Congress has oversight before money is fungibly 
moved back and forth. Why didn't we follow that recommendation?
    Secretary Winter. Sir, I would have to get back to you on 
that question.
    Mr. Shuster. I bring that up because it just seems to me 
that if we are having MPFF, not the T-AKEs, but the amphibious 
assault type of craft, potentially Congress should look at 
pulling that back over into the regular shipbuilding 
procurement because you are able to move money fairly fungibly 
in the NDSF fund and not with these strictures from the 
congressional oversight. How come they dropped out the 13th and 
14th T-AKE, Mr. Secretary or CNO, that is not in the budget 
this year?
    Secretary Winter. That is subject to the final decision on 
the MPFF structure. That is something that we are currently 
under study and examination, expect to fully reflect----
    Mr. Shuster. But then why didn't you take all the ships 
that are in the MPFF concept out of the budget? Why just those 
two? Why not the LHA and the others?
    Secretary Winter. Sir----
    Mr. Shuster. I guess my questions have to do with this: The 
Navy has historically been terrific, 5 percent cost overruns. 
And yet we have had LPD, LCS, we have talked DDG or, you know, 
1000 upwards of 100 percent. Last year your 30-year 
shipbuilding plan said it would cost $16 billion per year. This 
year when you submitted the 30-year shipbuilding plan, it said 
it will cost $22 billion per year. Correct?
    Secretary Winter. It depends upon the reference years, but 
there has been----
    Mr. Shuster. Yes, sir. If you take the first 5 or 6 years, 
it is only $19 billion or whatever, 9 percent. But overall, 
your present procurement budget for shipbuilding is $11 
billion. That means you are asking for twice the same amount of 
money for shipboard procurement.
    The Army is procuring more money, more of its program in 
the emergency supplemental than it is in the regular budget. 
You don't even include the 12 ballistic missile submarines 
(SSBNs) in that 30-year shipbuilding plan. I guess my concern 
is several, that this effort--I think Mr. Duncan Hunter said 
it--but this effort to get shipbuilding to a certain number is 
going to take at least a doubling of the procurement, from what 
I see.
    And potentially with these cost overruns, I don't know if 
it is best to have some of these assault vessels in the NDSF 
fund. And finally, why don't we have the 12 SSBNs in the 30-
year shipbuilding plan?
    Secretary Winter. Well, sir, a number of questions there. 
The SSBNs, as I mentioned earlier today, we are just right now 
starting the initial study, the requirements definitions for 
the future deterrent force. We have just initiated that 
activity in conjunction with STRATCOM. There are a number of 
open issues there. And it is also some time to work that.
    We are talking about construction starts in the 2019 time 
period. So we do have the time to work out through these 
issues. That said, it is a very complex set of issues involving 
not only the----
    Mr. Shuster. I wasn't talking.
    Thanks, Mr. Secretary.
    Secretary Winter. Thank you.
    The Chairman. Please finish your answer, Mr. Secretary.
    Secretary Winter. It involves the warheads, the missiles, 
and the boats themselves. At this point in time, the analyses 
of the boats, the ships that would be required for construction 
is so immature that any cost estimate that we put in would be 
very--of questionable utility. And so, we elected not to put in 
just a placeholder.
    Mr. Shuster. Yes, sir. Thank you.
    The Chairman. The gentlelady wants a second round. The 
gentlelady from Guam?
    Ms. Bordallo. Thank you. Thank you very much.
    The Chairman. And just a minute.
    Mr. Sestak, we will have a second round if you and Mr. 
Taylor wish to have additional questions.
    Ms. Bordallo. I just have two short questions.
    Mr. Secretary, another for you. I want to emphasize the 
concern regarding the EIS for the Guam buildup. We were 
speaking about it earlier.
    2008 is a pivotal year for planning and the EIS. Yet I am 
aware that cooperating agencies lack the funding needed to 
undertake the research and provide the baseline data needed to 
analyze the alternatives as part of this process. Specifically, 
for example--and I am the chair of the subcommittee on 
Fisheries--the National Marine Fishery Service is stretched 
thin, has many priorities in the Pacific region, and internally 
lacks the resources required to fully participate in the EIS.
    I want to register my concern and urge the Department of 
Navy to help fund the work by the cooperating agencies. Can you 
comment on the status of cooperation and funding support 
between the Navy and cooperating agencies on the Guam EIS?
    Secretary Winter. Thank you, ma'am. We are working together 
very closely, I believe, to identify the specific actions that 
need to take place and also to motivate the other agencies to 
engage and provide the appropriate people at the right times to 
be able to do this. But it is their responsibility to provide 
the funding for those activities.
    In many cases, the issue is as much the availability of key 
people as it is the financial resources. We are trying to 
motivate this through the interagency working group that has 
been established. I think we have gone a long way toward making 
it clear and communicating what the needs are there. And I 
think that the process of escalation that Secretary Ken Thorne 
has been helping with will further that objective.
    Ms. Bordallo. Thank you. And this is not a question, but I 
hope we are looking at green building and alternative energy in 
this buildup. And this has to do with all of our witnesses, as 
we go along.
    And then one last question to Admiral Roughead. In your 
prepared statement, you state that the Navy continues to review 
current and alternative carrier ports to ensure the strategic 
Navy force disposition. Is this a general ongoing review or a 
specific study or analysis? And if the latter, what is the 
timeline for the completion of this? And does this review 
include potential CVN home porting in Guam and/or Mayport, 
Florida?
    Admiral Roughead. Thank you, ma'am. What we are doing is to 
look at our fleet today and determine where the best and 
optimum locations are for that fleet. It is something that we 
do routinely and repeatedly. But I wanted, as I came in to my 
current position, to take a look at do we have our ships and 
our commands and aircraft in the right places because the world 
has changed a lot. And so, my staff is working on that.
    The product that they produce will help us as we work on 
our fiscal year 2010 budget. But I believe it is important that 
we look at how we are positioned.
    Ms. Bordallo. Thank you very much, Admiral.
    And thank you, Mr. Chairman, for the opportunity for the 
second round.
    The Chairman. You bet.
    The gentleman from Mississippi, Mr. Taylor.
    Mr. Taylor. Thank you, gentlemen, for this marathon 
session. A couple of aviation questions. Given that the Pratt 
Whitney F-135 short takeoff, vertical landing development 
engine has experienced two failures during testing, do you 
think it would be prudent to continue the Joint Strike 
Fighter's competitive engine program that was mandated in last 
year's Defense Authorization Act but not provided any funding 
for the Department of Defense?
    Secretary Winter. Sir, I believe that the problems that 
have occurred with the 135 engine, Pratt engine, are not 
atypical, if you will, for a development program of this 
caliber. And we do believe that they are understood and they 
are good plans in place right now to provide the corrective 
remedies that will enable us to use that engine appropriately 
in testing.
    I would note that for the Department of the Navy, both the 
Marine Corps and the carrier Navy, we do have a particular 
issue in terms of being able--having to go down to a single 
engine type for our fleet. The challenges of maintaining and 
sustaining those engines at sea are such that we cannot provide 
for multiple engine support onboard either our big deck amphibs 
or our carriers.
    The Chairman. Mr. Secretary, I think the question is more 
during the developmental stage.
    Secretary Winter. Yes, sir.
    The Chairman. Whether now we ought to be looking at two 
rather than one.
    Secretary Winter. Well, the point I was trying to get to, 
sir, is that the argument that is usually made in terms of 
recouping the additional costs of developing two engines is 
that one can make it up by having ongoing competition during 
production, a leader, follower arrangement. And while I am 
generally supportive of leader, follower arrangements, in this 
particular case, we cannot affect that for Navy purposes, 
either for the Stovall or the carrier variant.
    And I think then the question that comes is, do we believe 
the risks associated with the 135 development are such that we 
need to spend several hundred million dollars a year extra to 
be able to maintain a second engine? And we do not believe that 
the risks here require that additional investment.
    Mr. Taylor. The second question is in regard to the VH-71. 
I guess this is particularly interesting because of the Air 
Force decision.
    It is currently experiencing significant cost overruns and 
unforeseen schedule delays. What is the department's plan for 
this program? How will the cost overruns be resourced to 
minimize impact on other Navy and Marine Corps programs? I am 
told that the cost has increased by 67 percent.
    And a last question that was not supplied by the staff but 
is a curiosity of mine. There is a practice that a number of 
corporations have engaged in recently where a company will 
reach an agreement with an offshore firm and structure their 
business relationship to where almost all of the profits flow 
to the offshore firm. It is referred to as a corporate 
inversion.
    And since most nations do not require income taxes on 
foreign investments in foreign profits, it becomes a very 
clever way for an outfit doing business in the United States to 
totally escape paying corporate taxes or greatly minimize their 
corporate taxes. So a follow-on to the Presidential helicopter 
is does your organization take the time to see if some of these 
arrangements amount to a corporate inversion.
    And I realize the Air Force contract was not in your line 
of work. But coming from the corporate world, I think you would 
be probably the most knowledgeable about that practice. And if 
you could tell me whether or not the DOD is being vigilant on 
this because we certainly don't want to create a situation 
where an American firm is put at a cost disadvantage because 
they are good citizens and pay their taxes.
    Secretary Winter. Well, sir, a number of questions there. 
Let me first go to the question of where we are proceeding on 
the VH-71. The increment one is proceeding as previously 
planned. We are getting the first articles there. They are into 
tests. We also have one article up at Oswego that is being 
missionized, if you will, with the incorporation of all the 
unique mission equipment that is required for this particular 
program. And we are continuing that development ongoing.
    We are taking another look at the increment two options 
there, expect that we will be able to get some clarity on that 
in the very near future. The specific allocation of resources 
for increment two in the 2009 submittal is to ensure that, 
notwithstanding which option of several that is chosen for the 
future restructuring, that we have the ability to minimize the 
schedule impact associated with the current hiatus of 
activities there.
    So we have a pretty reasonable course ahead of us for 
increment one. And we will be looking at increment two here in 
the very near future.
    Relative to the specific questions on the assessment of the 
proposals involving foreign sources, I have to tell you that I 
am not at all familiar with any of the evaluations that took 
place on the tanker program. I very deliberately kept that--
gave that a wide berth.
    Mr. Taylor. Mr. Secretary, how about on this program? Did 
anyone even bother to see if there was a corporate inversion, I 
will use the word, scheme?
    Secretary Winter. Sir, I hate to use the term. It occurred 
before my watch. But all of this transpired a while before I 
took the position. I would be happy to go and, for the record, 
do the research and see what we, in fact, did.
    Mr. Taylor. May I make the request of you? Thank you, Mr. 
Secretary.
    Thank you, Mr. Chairman.
    [The information referred to can be found in the Appendix 
beginning on page 154.]
    The Chairman. Mr. Hunter has a follow up.
    Mr. Hunter. Thanks, Mr. Chairman.
    First, I want to apologize for being out of this hearing 
for such a big piece of the hearing. And again, gentlemen, 
thank you for your testimony. And you have got major challenges 
here in front of you.
    I guess two things. General Conway, as we move those 
Marines to that southern area of operation (A.O.) in Iraq, I 
think it is important to have a little follow up maybe on rules 
of engagement. I know we have had a discussion on that. But in 
the event that they are chopped to an International Security 
Assistance Force (ISAF) commander--and there may be some 
differences, which could be telling differences--I think it is 
important to resolve how those rules of engagement would 
devolve.
    And let me ask you, gentlemen, since this is kind of the 
close-up of the hearing here. Is there anything that----
    The Chairman. May I interrupt?
    Mr. Hunter. Absolutely. Let me ask a question, I mean. 
Would they not still be under American rules of engagement?
    General Conway. Sir, that is the intent, as I understand 
it. And quite frankly, we are pleased with that arrangement. We 
think it gives us more flexibility to do what we are expected 
to do if we stay under U.S. rules of engagement.
    The Chairman. Thank you.
    Excuse me.
    Mr. Hunter. Well, yes, my only question is if the Marines--
and I meant to say Afghanistan, not Iraq--that the Marines are 
chopped to Canadian commander in that southern A.O. and they 
are under his command, that we would better have a pretty clear 
line of communication that he has taken on for that piece of 
his force a different standard and if there are some material 
differences in rules of engagement and make sure that that is, 
in fact, implemented.
    But anyway, I think that needs some further discussion. And 
we have got to be pretty careful as we walk down through that.
    General Conway. And it is being sorted out in theater, sir, 
between General McNeil and the Canadian commander, frankly.
    Mr. Hunter. Okay. Okay, good. Let me just ask you a last 
question here, Secretary Winter. And again, thank you for all 
the issues you are working here. Have you worked through these 
problems that we have had with training submarine operations 
and the environmental challenges that we have had in courts?
    Secretary Winter. No, sir. We are still engaged there. In 
fact, as a result of the latest set of rulings in the 9th 
Circuit, we expect to be filing here shortly in front of the 
Supreme Court.
    Mr. Hunter. Okay. You know, Mr. Chairman, we worked--we 
thought we had worked--we had protected our folks with the 
changes we made in the environmental laws because at one point 
you had environmental laws that were interpreted to it if we 
disturbed marine mammals, that is, if a seal was cruising, 
looked over at the naval operation, that could constitute ``a 
disturbance.'' We had a very low standard and a very difficult 
standard for the Navy to meet on these operations. We thought 
we fixed it.
    Mr. Secretary, there may be additional measures that we 
need to take, maybe some tweaks on the law that will avoid a 
lot of problems and save some sailors' lives. So----
    Secretary Winter. Sir, I would appreciate the opportunity 
to work with your staff to take a look at some potential 
legislative options there.
    Mr. Hunter. Okay. Yes, I think we should look at that 
closely.
    Again, thank you, gentlemen.
    Thank you, Mr. Chairman, for holding this hearing. And I 
apologize for being absent in such a large part.
    The Chairman. Thank the gentleman.
    General, Dr. Snyder asked about this issue, but let me 
raise it again. The 3,400 additional Marines that are being 
sent to Afghanistan will arrive approximately when?
    General Conway. Sir, the end of this month and become 
operational the very first week of April.
    The Chairman. All right. Of that 3,400 Marines, from the 
testimony it appears that still will not cover the required 
number of trainers for Afghanistan. Am I correct?
    General Conway. Sir, that is also correct. And there has 
been a standing request for forces to both U.S. and coalition 
force militaries for 3,500 police trainers that has gone unmet 
now actually for several months at this point.
    The Chairman. And of the 3,400, only a handful will be 
allowed--because of the duty requirements, only a handful will 
be involved with training. Am I correct?
    General Conway. That is correct, sir. The platoons will be 
broken down into various locations at the district headquarters 
where the Afghan Police will operate. But in terms of people 
with the necessary skills to train those Afghan Police, that 
will generally not be resident in our platoons. That will be a 
capability that is brought in. And the numbers won't be great.
    The Chairman. Should there be a requirement for additional 
Marines in Iraq after the 3,400 are deployed to Afghanistan, 
will you have any Marines to send to Iraq?
    General Conway. Sir, we have Marines to send in the case of 
extremism. However, if we are to maintain any semblance of 
deployment to dwell, then we must be concerned about any 
additional requirements. We should be headed the other way. We 
are trying to get to a 7-month deployment and 14 months home. 
And we are certainly not going to do that through October.
    Any additional commitment of Marines to Iraq or Afghanistan 
would only exacerbate that. And I would like to be looking at 
reducing the requirements.
    The Chairman. Well, they do phenomenal work. And they 
should know how much we on this committee appreciate their 
efforts and your leadership.
    The end strength issue was discussed in this committee with 
the Air Force where the budget has one thing and the 
secretary's personal opinion was something else. It appears 
that you are heading to level out the Navy at 322,000. Am I 
correct?
    General Conway. Yes, sir.
    The Chairman. And they are at, what, 325,000 today. Is that 
correct?
    Admiral Roughead. It is 333,000
    Secretary Winter. It is around 333,000 right now. By the 
end of this year, we will be down to about 327,000, is the 
goal.
    The Chairman. This year?
    Secretary Winter. Yes, sir, fiscal year 2008 and----
    The Chairman. And then you get down at 322,000 roughly 
when?
    Secretary Winter. It is about a 5-year glide slope to get 
down the last 5,000, sir.
    The Chairman. And that is done through attrition, I take 
it?
    Secretary Winter. Basically, yes, sir.
    The Chairman. You won't be just throwing people out?
    Secretary Winter. No, sir.
    The Chairman. No, sir. And as people retire or leave to go 
back to their civilian job, that will take care of that. I 
thank you.
    General, one last question. There is an exceptional family 
member program. Does that include families with autistic 
children?
    General Conway. Yes, sir, it does. Mr. Chairman, about 3 
percent of our Marines who are married are signed on to our 
exceptional family member program. And our first issue with 
those families is--the term escapes me--asthma-related types of 
disabilities. Second are psychiatric. But third on the list is 
autism.
    The Chairman. Thank you.
    Well, gentlemen, thank you for your patience, your 
knowledge, your dedication, not just to the Navy and to the 
Marine Corps, but to our country. With that, we are adjourned. 
Thank you.
    Admiral Roughead. Thank you, sir.
    Secretary Winter. Thank you, Mr. Chairman.
    [Whereupon, at 1:06 p.m., the committee was adjourned.]



=======================================================================




                            A P P E N D I X

                             March 6, 2008

=======================================================================




=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 6, 2008

=======================================================================



    [GRAPHIC] [TIFF OMITTED] 44339.001
    
    [GRAPHIC] [TIFF OMITTED] 44339.002
    
    [GRAPHIC] [TIFF OMITTED] 44339.003
    
    [GRAPHIC] [TIFF OMITTED] 44339.004
    
    [GRAPHIC] [TIFF OMITTED] 44339.005
    
    [GRAPHIC] [TIFF OMITTED] 44339.006
    
    [GRAPHIC] [TIFF OMITTED] 44339.007
    
    [GRAPHIC] [TIFF OMITTED] 44339.008
    
    [GRAPHIC] [TIFF OMITTED] 44339.009
    
    [GRAPHIC] [TIFF OMITTED] 44339.010
    
    [GRAPHIC] [TIFF OMITTED] 44339.011
    
    [GRAPHIC] [TIFF OMITTED] 44339.012
    
    [GRAPHIC] [TIFF OMITTED] 44339.013
    
    [GRAPHIC] [TIFF OMITTED] 44339.014
    
    [GRAPHIC] [TIFF OMITTED] 44339.015
    
    [GRAPHIC] [TIFF OMITTED] 44339.016
    
    [GRAPHIC] [TIFF OMITTED] 44339.017
    
    [GRAPHIC] [TIFF OMITTED] 44339.018
    
    [GRAPHIC] [TIFF OMITTED] 44339.019
    
    [GRAPHIC] [TIFF OMITTED] 44339.020
    
    [GRAPHIC] [TIFF OMITTED] 44339.021
    
    [GRAPHIC] [TIFF OMITTED] 44339.022
    
    [GRAPHIC] [TIFF OMITTED] 44339.023
    
    [GRAPHIC] [TIFF OMITTED] 44339.024
    
    [GRAPHIC] [TIFF OMITTED] 44339.025
    
    [GRAPHIC] [TIFF OMITTED] 44339.026
    
    [GRAPHIC] [TIFF OMITTED] 44339.027
    
    [GRAPHIC] [TIFF OMITTED] 44339.028
    
    [GRAPHIC] [TIFF OMITTED] 44339.029
    
    [GRAPHIC] [TIFF OMITTED] 44339.030
    
    [GRAPHIC] [TIFF OMITTED] 44339.031
    
    [GRAPHIC] [TIFF OMITTED] 44339.032
    
    [GRAPHIC] [TIFF OMITTED] 44339.033
    
    [GRAPHIC] [TIFF OMITTED] 44339.034
    
    [GRAPHIC] [TIFF OMITTED] 44339.035
    
    [GRAPHIC] [TIFF OMITTED] 44339.036
    
    [GRAPHIC] [TIFF OMITTED] 44339.037
    
    [GRAPHIC] [TIFF OMITTED] 44339.038
    
    [GRAPHIC] [TIFF OMITTED] 44339.039
    
    [GRAPHIC] [TIFF OMITTED] 44339.040
    
    [GRAPHIC] [TIFF OMITTED] 44339.041
    
    [GRAPHIC] [TIFF OMITTED] 44339.042
    
    [GRAPHIC] [TIFF OMITTED] 44339.043
    
    [GRAPHIC] [TIFF OMITTED] 44339.044
    
    [GRAPHIC] [TIFF OMITTED] 44339.045
    
    [GRAPHIC] [TIFF OMITTED] 44339.046
    
    [GRAPHIC] [TIFF OMITTED] 44339.047
    
    [GRAPHIC] [TIFF OMITTED] 44339.048
    
    [GRAPHIC] [TIFF OMITTED] 44339.049
    
    [GRAPHIC] [TIFF OMITTED] 44339.050
    
    [GRAPHIC] [TIFF OMITTED] 44339.051
    
    [GRAPHIC] [TIFF OMITTED] 44339.052
    
    [GRAPHIC] [TIFF OMITTED] 44339.053
    
    [GRAPHIC] [TIFF OMITTED] 44339.054
    
    [GRAPHIC] [TIFF OMITTED] 44339.055
    
    [GRAPHIC] [TIFF OMITTED] 44339.056
    
    [GRAPHIC] [TIFF OMITTED] 44339.057
    
    [GRAPHIC] [TIFF OMITTED] 44339.058
    
    [GRAPHIC] [TIFF OMITTED] 44339.059
    
    [GRAPHIC] [TIFF OMITTED] 44339.060
    
    [GRAPHIC] [TIFF OMITTED] 44339.061
    
    [GRAPHIC] [TIFF OMITTED] 44339.062
    
    [GRAPHIC] [TIFF OMITTED] 44339.063
    
    [GRAPHIC] [TIFF OMITTED] 44339.064
    
    [GRAPHIC] [TIFF OMITTED] 44339.065
    
    [GRAPHIC] [TIFF OMITTED] 44339.066
    
    [GRAPHIC] [TIFF OMITTED] 44339.067
    
    [GRAPHIC] [TIFF OMITTED] 44339.068
    
    [GRAPHIC] [TIFF OMITTED] 44339.069
    
    [GRAPHIC] [TIFF OMITTED] 44339.070
    
    [GRAPHIC] [TIFF OMITTED] 44339.071
    
    [GRAPHIC] [TIFF OMITTED] 44339.072
    
    [GRAPHIC] [TIFF OMITTED] 44339.073
    
    [GRAPHIC] [TIFF OMITTED] 44339.074
    
    [GRAPHIC] [TIFF OMITTED] 44339.075
    
    [GRAPHIC] [TIFF OMITTED] 44339.076
    
    [GRAPHIC] [TIFF OMITTED] 44339.077
    
    [GRAPHIC] [TIFF OMITTED] 44339.078
    
    [GRAPHIC] [TIFF OMITTED] 44339.079
    
    [GRAPHIC] [TIFF OMITTED] 44339.080
    
    [GRAPHIC] [TIFF OMITTED] 44339.081
    
    [GRAPHIC] [TIFF OMITTED] 44339.082
    
    [GRAPHIC] [TIFF OMITTED] 44339.083
    
    [GRAPHIC] [TIFF OMITTED] 44339.084
    
    [GRAPHIC] [TIFF OMITTED] 44339.085
    
    [GRAPHIC] [TIFF OMITTED] 44339.086
    
    [GRAPHIC] [TIFF OMITTED] 44339.087
    
    [GRAPHIC] [TIFF OMITTED] 44339.088
    
    [GRAPHIC] [TIFF OMITTED] 44339.089
    
    [GRAPHIC] [TIFF OMITTED] 44339.090
    
    [GRAPHIC] [TIFF OMITTED] 44339.091
    
    [GRAPHIC] [TIFF OMITTED] 44339.092
    
    [GRAPHIC] [TIFF OMITTED] 44339.093
    
    [GRAPHIC] [TIFF OMITTED] 44339.094
    
    [GRAPHIC] [TIFF OMITTED] 44339.095
    
    [GRAPHIC] [TIFF OMITTED] 44339.096
    
    [GRAPHIC] [TIFF OMITTED] 44339.097
    
    [GRAPHIC] [TIFF OMITTED] 44339.098
    
    [GRAPHIC] [TIFF OMITTED] 44339.099
    
    [GRAPHIC] [TIFF OMITTED] 44339.100
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 6, 2008

=======================================================================

      
             RESPONSE TO QUESTIONS SUBMITTED BY MR. SKELTON

    Secretary Winter. Navy was directed to complete 7,755 Defense 
Health Program conversions between FY05-FY13. The conversions were 
programmed in Program Review FY05, POM FY06 and POM FY08. Enactment of 
the FY08 NDAA, specifically Section 721, prohibits already programmed 
conversions in FY08-FY12 to convert from a military position to a 
civilian position. Navy had already forwarded its submission to OSD for 
the 2009 budget prior to the enactment of the FY08 NDAA. Per Section 
721, the FY08-FY12 conversions must be restored as military positions. 
Section 721 also directed the restoration of military end strength for 
the remaining unfilled FY05-FY07 positions that had not been 
successfully hired by 30 September 2008.
    Navy is committed to restoring 4,204 programmed FY08-FY12 military 
to civilian conversions. FY13 conversions will not be addressed at this 
time as Section 721 only extends through FY12. Billets programmed for 
conversion in FY08 and FY09 are returned as military end strength and 
phased in between FY10-FY13. The specific phase dates were chosen based 
on the Navy's ability to fill the restored positions with personnel. 
Military billets programmed for civilian conversion in FY10-FYI2 are 
returned in their respective conversion year.
    The 4,204 does not include 152 military end-strength associated 
with the closure of Naval Air Station Keflavik and Naval Support 
Activity La Maddelena in FY08. OSD included these outright billet 
eliminations as part of the overall conversion plan. Additionally, the 
4,204 does not include 61 positions that were already hired in FY08 
prior to the passage of the FY08 NDAA. Military end-strength programmed 
for conversion in FY05-FY07 that have not been successfully hired by 30 
September 2008 will be restored as military end-strength and phased in 
based on the Navy's ability to fill the restored positions with 
personnel. [See page 19.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MR. SAXTON
    Admiral Roughead. An additional $35 billion is not needed to 
achieve the goal of 313 ships by FY 2019 or in the near-term. Our 
shipbuilding priorities are always tempered by affordability and the 
impact of any single program on the resources available to support 
other programs within that sector of the Navy's accounts. Therefore, 
specific changes to the 313 plan may cause costs to increase. For 
example, accommodating the up-front cost for a nuclear powered cruiser 
would be difficult and will pose a challenge with respect to the 
limited resources we have within the shipbuilding sector. This may 
result in a need to request additional funding from the Office of the 
Secretary Defense or Congress to meet the direction provided in last 
year's National Defense Authorization Act.
    The Navy will consider several industrial factors as it pursues 
operational capability at reduced cost. First, level loading of ship 
procurements to help sustain minimum employment levels and skill 
retention will promote a healthy U.S. shipbuilding industrial base. 
Further, to achieve affordability goals, Navy program managers will 
make greater use of contract incentives, such as steep share lines 
combined with performance incentives, multi-year procurement, fixed 
price contracts (when and where appropriate), and increased use of 
competition to contribute to real shipbuilding cost containment. [See 
page 13.]
    Admiral Roughead. A strategic pause in the procurement of the third 
DDG 1000 will have the following implications: delay in the delivery of 
DDG 1000 warfighting capabilities, reevaluation of costs for the first 
two ships, and a shipyard industrial base impact.
    A one or two year pause in the program would affect DDG 1000-
specific system vendors. The two ships now under contract will likely 
increase in cost due to the lack of the shipbuilders' ability to spread 
shipyard overhead costs among multiple ships. Additionally, the cost of 
the mission systems equipment for the lead ships will have similar cost 
increases. The loss of shipyard workload, if not substituted by other 
shipbuilding, would likely impact costs on other Navy contracts at the 
same yards. [See page 15.]
                                 ______
                                 
             RESPONSE TO QUESTIONS SUBMITTED BY MR. TAYLOR
    Secretary Winter. During the source selection process for VH-71, 
Lockheed Martin Systems Integration, Owego and its subcontract 
structure, including foreign subcontractors, were evaluated as part of 
the management area of their proposal. The Government's evaluation did 
not identify any inappropriate subcontract relationships and none have 
been noted to date. Both offerors' proposals were carefully evaluated 
according to the standard acquisition guidelines set forth in the 
Federal Acquisition Regulations and other applicable statutes and 
Department of Defense regulations. [See page 44.]
                                 ______
                                 
            RESPONSE TO QUESTIONS SUBMITTED BY MR. BARTLETT
    Admiral Roughead. During Contractor Testing, mis-alignment of the 
AQS-20A Sonar and Organic Airborne and Surface Influence Sweep (OASIS) 
tow cable fairings during towed body recovery led to jamming in the MH-
60S Carriage, Stream, Tow and Recovery System (CSTRS) and subsequent 
damage to the tow cable. Since then, the tow cable fairings have been 
re-designed and a fairing orientor introduced into the CSTRS remedying 
these discrepancies.
    During OASIS Contractor Testing, the aft electrode of this 
magnetic/acoustic influence minesweeping device corroded faster than 
anticipated. Subsequent OASIS design improvements have increased 
electrode life from two to eight hours with the ultimate electrode life 
goal of 20 hours.
    The MH-60S will meet the fleet's future AMCM mission. The Navy's 
analysis of medium lift needs is formed on logistics requirements and 
not AMCM. [See page 22.]
                                 ______
                                 
             RESPONSE TO QUESTIONS SUBMITTED BY MR. SHUSTER
    Secretary Winter. The T-AKE contract with General Dynamics National 
Steel and Shipbuilding Company (NASSCO) was restructured in July 2007 
after the submission of the FY08 budget request. Failure to exercise a 
second FY06 T-AKE ship option necessitated renegotiation of the T-AKE 
contract. The Navy and NASSCO agreed upon restructuring the T-AKE 
contract to address the procurement of the next five ships (two more 
than the original 12 ship contract) and resolution of NASSCO's Request 
for Equitable Adjustment (REA). The two-part REA was submitted in CY 
2005-2006 for approximately $610M for the nine ships then under 
contract.
    In order to procure an additional five ships at the best possible 
price, the Navy addressed all the issues in a packaged negotiation. 
This approach included a cost adjustment for the first nine ships, 
negotiated the prices for the next five, and release of the REA. This 
approach benefited both the Navy and the shipbuilder. The Navy procured 
the entire class at the lowest overall cost per hull by restructuring 
the contract to include the existing nine and the additional five 
ships. The shipbuilder was able to stabilize the T-AKE production line, 
prevent a costly production gap and avoid costly work force disruptions 
due to layoffs and rehiring efforts.
    On August 17, 2007, a contract modification was executed to 
increase the ceiling prices for T-AKE 1 through T-AKE 9. The Navy used 
$280 million appropriated in FY07 to fund ceiling price adjustments and 
another $100 million in FY07 funds to execute a Long Lead Time Material 
(LLTM) option for T-AKE 10. The balance of T-AKE 10, $404 million, was 
funded in FY07 and FY08. The Navy also used $100 million in FY08 funds 
to execute a LLTM option for T-AKE 11. [See page 39.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 6, 2008

=======================================================================

      
                    QUESTIONS SUBMITTED BY MR. ORTIZ

    Mr. Ortiz. Admiral Roughead, in your testimony, you state that you 
have directed implementation of a systematic and consistent approach to 
assess the material condition of shore establishments and have 
developed a comprehensive investment strategy to identify and reverse 
the decline of the Navy's shore establishments. How are you ensuring 
that this approach takes in to account the Navy's training 
installations, such as NAS Kingsville and NAS Pensacola, and does not 
focus solely on operational installations that support the fleet? What 
approach is being taken to assess the material condition of 
installations? Are you factoring in recap rate of installations? How 
does the comprehensive investment strategy incorporate the requirements 
and facilities conditions of installations?
    Admiral Roughead. A primary Department of the Navy objective is to 
provide first-rate facilities to support stationing, training and 
operations of naval forces. All our Navy installations, whether 
primarily operational or training in nature, are critical to supporting 
the Fleet. Operational support facilities drive current readiness and 
training facilities often drive our future readiness. The Shore 
Investment Strategy was designed to align shore investments with 
warfighting requirements and improve sailor and family readiness and 
quality of service by applying a consistent strategy across all 
installations to ensure they are properly sized, configured, sustained, 
and aligned in accordance with the Navy Strategic Plan. The investment 
strategy includes 11 Shore Capability Areas (one of which is Training 
Support) and utilizes a systems-based approach to address global 
requirements through a comprehensive assessment of mission 
contribution, condition, capacity, configuration, and capability of 
installations linked to Navy Mission Essential Tasks.
    The Navy is assessing the material condition of our facilities 
utilizing the Facility Condition Assessment Program (FCAP). Over the 
next year, this program will provide a baseline condition assessment of 
all Navy facilities which will dramatically improve the quality of 
information used for planning and execution of our sustainment and 
recapitalization funds. The recap rate is used as a programming 
benchmark as we assess the top line level of recapitalization 
investment against the Navy inventory of facilities. We will also use 
the Office of the Secretary of Defense's new Facilities Modernization 
Model (FMM) as an additional programming benchmark.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. FORBES
    Mr. Forbes. The Navy has a $120 million ship depot maintenance 
shortfall. The President's request for this account was $4.13 billion. 
Why did the Navy decide this was an acceptable risk, and what 
maintenance is being delayed or not done because of this shortfall?
    Admiral Roughead. Ship depot maintenance remains a high Navy 
priority and the $4.13B request funds 97% of the projected depot 
maintenance requirement for FY09. The ``3%'' is considered acceptable 
risk because ship Class Maintenance Plans provide flexibility for 
short-term targeted deferrals. Work, if deferred, is documented and 
subsequently rescheduled to ensure the selected ship meets its planned 
service life. The $120M shortfall will result in a projection of 1 
submarine and 31 surface ship availabilities being deferred until FY10. 
The exact maintenance to be executed in these availabilities has not 
yet been identified, but routinely consists of longer-term life-cycle 
maintenance on propulsion machinery and distributed piping systems 
identified in the Integrated Class Maintenance Plan that can be 
deferred short-term with acceptable risk.
    Mr. Forbes. You have stated that, in general, 10 operational 
aircraft carriers are too few and the Navy intends to maintain 11 
carriers over the long term. You have also stated that you have taken 
steps to mitigate the 10 carrier period that would be created in Fiscal 
Year 2013 should the Enterprise be retired before the USS Ford carrier 
is delivered, but that you will struggle to meet deployment needs if 
that time period extends beyond two and a half to three years. However, 
a December 2006 DOD report indicated that the Ford won't reach initial 
capability until September 2016--which would create a gap of 45 months. 
Can you explain for me why this risk and capability gap is worth taking 
rather than the alternatives to maintaining 11 operational carriers? 
Also, is it true that one of our other carriers--the Abraham Lincoln--
is slated for a nuclear fuel conversion during the 10 carrier gap as 
well? If that is the case, we would really have 9 operationally capable 
carriers available, not 10?
    Admiral Roughead and Secretary Winter. The Navy's aircraft carriers 
provide significant capability spanning a full range of maritime and 
Joint missions. The Navy remains committed to maintaining 11 
operational aircraft carriers for the long term as a national 
imperative. The most challenging period to manage this force is between 
the scheduled inactivation of USS ENTERPRISE (CVN 65) in November 2012 
and the commissioning of the USS GERALD R FORD (CVN 78), planned for 
September 2015. During this period the carrier force structure would 
drop to ten operational aircraft carriers, requiring a waiver of 10 
U.S.C. 5062(b), as amended by Public Law 109-364, which requires the 
Navy to maintain not less than 11 operational carriers.
    The Navy's force generation model, the Fleet Response Plan (FRP), 
considers the demand for the required training and maintenance to 
sustain the desired level of units available for tasking. Today, it is 
routine to sustain our FRP CVN operational availability (AO) by having 
one carrier in a Refueling Complex Overhaul, and two other carriers in 
lesser maintenance availabilities. The FRP, combined with adequate 
funding of the operations and maintenance accounts has sustained an 
average of six Carrier Strike Groups (CSG) available within 30 days or 
less and a seventh Carrier Strike Group (CSG) ready within 90 days 
(6+1). Employing this counting convention, the Navy will have ten 
operational carriers during the period between CVN 65 inactivation and 
CVN 78 commissioning. The Department considers this risk both 
acceptable and prudent.
    Maintaining CVN 65 during this period would result in excessive 
technical risk because of the ship's age and challenges to our 
industrial base, and would create manpower perturbations at a cost that 
is not warranted for such a minimum operational return on investment. 
To continue operating CVN 65 beyond 2012, when she will be 51 years 
old, pushes the envelope well beyond the design life of 30 years and 
our experience base. Extending CVN 65 would also exacerbate pressure on 
our Manpower and Operations and Maintenance accounts, requiring a 
minimum of $2.8 billion (unprogrammed) to further sustain CVN 65. Even 
with these risks and costs, CVN 65--at best--would achieve only one 
more operational deployment before CVN 78 is commissioned, as CVN 65 
will only have enough fuel for one more deployment. Reactivating and 
operating a legacy aircraft carrier during this period will result in 
comparable risks and even greater unprogrammed costs. Based on the 
cumulative effects of these factors, maintaining 11 operational 
carriers during this period is high risk and would require significant 
funding with marginal return.
    Mr. Forbes. This year's Annual Report on Chinese Military Power 
revealed that eight of the last twelve Chinese diesel submarines are 
outfitted with the Threat D ``Sizzler'' missile. The missile flies 
close to sea level and is nearly supersonic. Is the availability and 
deployment of this weapon a significant concern to you given the 
capabilities in the current fleet, and what are you doing to make sure 
that the future fleet is capable to address this threat? What can we do 
in Congress in terms of accelerating funding or timelines to assist you 
in that effort?
    Admiral Roughead and Secretary Winter. Advanced cruise missile 
threat proliferation is a major concern. The Navy continues to invest 
in weapons and combat systems suites that will defeat current and 
future threats, including the ``Sizzler,'' by leveraging current 
intelligence with detailed research from various scientific 
institutions. The Navy plans to expand its existing capability against 
this threat through combat systems and weapons upgrades. Additionally, 
the Navy is funding development of a threat representative target, the 
Multi-Stage Supersonic Target (MSST), for testing Navy weapons and 
combat systems. The MSST is scheduled to reach initial operating 
capability in 2014. The information we learn from testing and 
evaluating weapons and combat system performance against MSST will lead 
to further system improvements. The budget submitted supports our 
requirement.
    Mr. Forbes. Modem vacuum electronics (VE) technology is used 
throughout the fleet and across the DOD in hundreds of vital high power 
radar, electronic warfare, and communications systems, including the 
AEGIS Weapons System, used successfully recently to help target and 
destroy an errant satellite over the Pacific Ocean. These vacuum 
electronics enabled systems, on which we will depend for decades to 
come, serve to protect our servicemen and women, and many billions of 
dollars of DOD assets. Our international competitors--notably France 
and China--are investing heavily in VE technology. The world's largest 
VE device manufacturer is Thales, based in France. Thales products have 
found their way into numerous DOD systems. China now supports hundreds 
of research scientists in this important field. The Navy has 
historically assumed the DOD lead for VE S&T. Why, then, has the Navy's 
request for VE applied research (6.2) been reduced each year for the 
past 3 years, dropping to under $3M for FY09, while a 2002 OSD study 
recommended a total DOD investment of $27M/year, including $12M/year 
for Navy VE applied research?
    Admiral Roughead Vacuum electronics is a very mature technology 
area. The applications to which you refer are legacy systems. Nearly 
all modem radars (Dual-Band Radar, Theater High Altitude Area Defense, 
Sea Based X-band radar, F-22 radar, F-35 radar, etc) are solid state 
radars because of significantly increased capability and reliability 
which are critical for the warfighter's survival and mission.
    Previously, vacuum electronics offered an advantage over solid 
state amplifiers at higher millimeter wave frequencies, which is where 
the investment was being made. Solid state is now beginning to provide 
an alternative at some of these higher frequencies and assessments are 
made as to which is the preferred technology on a case by case basis.
    As a result, Navy continues to support Naval Research Lab research 
in modeling to enable first pass tube design and vacuum electronics 
technology for amplifiers at higher frequencies. There is limited 
military application for frequencies above about 45 GHz, since the 
atmospheric absorption is so high that there are only a few windows at 
which systems can function.
    About seven years ago, Naval Research Lab, using their already 
developed codes, was able to do a first pass design of the vacuum 
electronics amplifier for the Warlock radar they built. This 
demonstrated the efficacy of the model development and the maturity of 
this technology area.
    The 2002 OSD study proposed an investment of $22 million in vacuum 
electronics, while recommending $60 million be invested in solid state 
amplifiers. This illustrated the higher potential benefit of solid 
state research. Solid state technology replaced vacuum electronics 
technology in all system receivers, and as noted above, nearly all 
modem radars use solid state amplifiers. Similar comparisons can be 
made for electronic warfare systems and communications systems in most 
cases.
    The Navy will continue to evaluate which technology holds the most 
promise on an application by application basis. We believe that the 
FY09 budget supports the proper balance in these two research areas.
    Mr. Forbes. Your enterprise IT approach has been different than the 
other services. The Navy Marine Corps Intranet (NMCI) was a significant 
investment for the Department of the Navy and now deemed a visionary 
step for both the Navy and the Marine Corps in terms of security and 
managing IT spending. Is there a lesson here for everyone?
    Admiral Roughead NMCI was a significant departure from the way the 
Department of the Navy (DoN) procured and sustained IT and has provided 
many benefits for the department. NMCI decidedly improved the DoN's 
cyber-security posture, as compared to its legacy networks. Through 
NMCI, DoN was able to eliminate IT ``have nots'' and was able to deploy 
department-wide initiatives such as Navy Enterprise Resource Products 
(ERP) and Common Access Card (CAC) log-on. NMCI provides unprecedented 
visibility into IT costs and enables elimination of costly and 
duplicative legacy networks through the ongoing Cyber Asset Reduction & 
Security (CARS) initiative.

    Additional lessons learned are:

      -  IT is critical to warfighting and business processes and 
should be reflected as such.

      -  Greater service mobility and increased remote accessibility 
should be sought to accommodate the increasingly mobile workforce.

      -  Users want more intuitive knowledge management and sharing 
capability, less intrusive security and less arduous certification 
requirements. Network Operators, on the other hand, want improved 
security and more arduous certification requirements to deal with an 
ever increasing threat environment. Leadership must balance these 
competing mission/user needs.

      -  Operators and users both need adaptable architecture, improved 
interoperability and increased collaboration.

    Mr. Forbes. I'm concerned that the Navy is heading towards a 
virtual IT ``traffic jam'' with its attempt to move forward 
simultaneously on the Next Generation Enterprise Network (NGEN) and the 
Navy Consolidated Afloat Network and Enterprise Services (CANES) 
program. How does the Navy intend to manage the sequencing and 
integration of these efforts?
    Admiral Roughead The fielding schedules for both CANES and NGEN 
have been examined closely for potential conflicts, and where 
necessary, adjustments have been made. As currently scheduled, we 
believe the afloat network, CANES, can be fielded without difficulty at 
the same time as the ashore network, NGEN, is rolling out. Since CANES 
is composed of mature and reliable technologies that are being inserted 
into the Fleet in place of older equipment in need of tech refresh, we 
believe its fielding will actually lower the risk of an ``IT traffic 
jam.'' NGEN fielding and deployment is still under consideration, and 
the interface with the afloat network and the demand placed upon Navy 
training, engineering, and acquisition competencies are key factors in 
the schedule, capacity, and capability deliberations. Both programs are 
reviewed frequently by senior leadership for program status and health, 
and the program offices are coordinating closely to sequence and 
integrate where necessary.
                                 ______
                                 
            QUESTIONS SUBMITTED BY MRS. DAVIS OF CALIFORNIA
    Mrs. Davis. The CNO's prioritized list of FY2009 Navy Unfunded 
Program Requirements identified $941M to ``fund procurement of final 2 
T-AKEs (13 and 14) to accelerate and support Maritime Prepositioning 
Force Requirements'' as the Navy's 4th highest FY09 unfunded 
requirement. The CNO's correspondence explained further that funding 
this requirement in FY09 would ``leverage the hot production line at 
NASSCO shipbuilding and allow the Navy to maintain support of an 
existing production contract without renegotiation.'' I assume that ADM 
Roughead put funding for the two planned, final T-AKE dry cargo/
ammunition ships high on the list because he believes there remains a 
strong military requirement for completing the contracted buy of all 14 
T-AKE ships and getting these ships to the Fleet. Secretary Winter's 
recent Navy Long Range Report on Vessel Construction to Congress noted: 
``The current budget does not include the 13th or 14th T-AKEs required 
to meet the MPF(F) structure described above, pending completion of an 
ongoing MPF(F) concept of operations study.'' The report confirms, 
however, that ``it is expected that the assessment will show that the 
MPF(F) will need those two T-AKEs.'' Navy leadership in the last few 
years has emphasized the need to bring greater stability to the 
shipbuilding budget plan to help make Navy ships more affordable and to 
provide appropriate incentives for capital investment by our 
shipbuilders. This committee supported Navy efforts last year to 
accelerate T-AKE ship production and the FY08 Defense Authorization and 
Appropriations Acts provided an additional $300M in advance procurement 
toward the final three T-AKEs: ships 12, 13 and 14. While it is a 
positive development that the FY09 budget request contains funding for 
the balance of cost of T-AKEs 11 and 12, it is very concerning that 
PB09 no longer reflects out-year funding to procure T-AKEs 13 and 14 
after FY09--which had been reflected in the PB08 out-year plan. It 
would introduce instability in the Navy's only ongoing auxiliary 
shipbuilding program--a program that by all accounts is performing 
well--and would disrupt the industrial base for naval auxiliaries and 
likely lead to increased costs for required Navy ships. Please comment 
on the requirement and unique capabilities the T-AKE Class brings to 
the Fleet. Please also address what appears to be an inconsistency 
between Navy leadership statements attesting to the requirement for all 
14 T-AKE Class ships and budget actions that do not appear to meet that 
requirement.
    Admiral Roughead The Navy has committed to procure the minimum 
number of T-AKEs necessary to meet the Combat Logistic Force 
requirement, currently assessed to be 12 T-AKEs. When Maritime 
Prepositioning Force (Future) (MPF(F)) T-AKE assets are considered in 
logistics planning for major combat operations, the CLF requirement 
drops to 11 T-AKEs, enabling the transfer of the 12th CLF T-AKE to the 
MPF(F). As part of the MPF(F), T-AKEs will provide a sea based 
sustainment of multi-product combat logistics to expeditionary forces 
ashore.
    The Joint Requirements Oversight Council (JROC) had not approved 
Increment 1 of MPF(F), which includes T-AKE 13 & 14, at the time 
PRESBUD 09 (PB09) was submitted. As a result, these ships were not 
officially included as part of the Budget. However, they were included 
in the CNO's PB09 Unfunded Programs List since it was expected that 
Increment 1 would be approved by the JROC. On 17 March, 2008, the JROC 
approved the MPF(F) Increment 1 Capability Development Document (CDD) 
which supports the acquisition of MPF(F) T-AKE's 13 & 14.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MRS. DRAKE
    Mrs. Drake. Admiral Roughead, I have a question about the COD 
fleet. My understanding is that the replacement date for this nearly 30 
year-old airframe was 2014, but that it has been pushed to the right to 
2020. Should we be addressing this issue now, rather than later? And do 
you have any concerns about the possibility of having to ground the COD 
fleet?
    Admiral Roughead The oldest C-2A entered fleet in January 1985 and 
the procurement of 35 aircraft was complete with the last delivery in 
February 1990. The service life of the aircraft is based upon hours 
flown, landings, and catapults and arrestments, with a maximum limit 
for each. Based on the past utilization of the aircraft and predicted 
future use, the first of these aircraft was predicted to reach the end 
of its service life beginning in 2009 and approximately one-third being 
retired by 2014. While aircraft utilization, in particular the limit on 
landings, has been greater than expected, the C-2A fleet is in the 
process of a fully funded Service Life Extension Program (SLEP) that 
will increase the maximum hours on the aircraft by 50%, increase the 
number of landings by 140%, and increase the number of catapults and 
arrestments by 33%. This program is scheduled to be complete in 2010. 
Even with the greater utilization rates, the SLEP program results in 
the first aircraft reaching service life limits no earlier than 2017 
and a majority of the aircraft reaching service life limits between 
2026 and 2036.
    A replacement aircraft is currently being studied by the Navy. In 
October 2006 an Analysis of Alternatives for Airborne Resupply/
Logistics for Sea Basing was commissioned and the results of that 
study, along with emerging requirements, industry recommendations, and 
cost constraints are being used to identify the most effective 
replacement for providing the capability currently provided by the C-2A 
Greyhound (COD). No decisions regarding follow-on aircraft have been 
made for the POM-10 budget cycle.
    While any aircraft could be grounded as a result of a unique set of 
circumstances, there is no specific reason that any aircraft, or the 
entire Fleet, would be grounded prior to an aircraft reaching the end 
of its service life. In addition to the SLEP program, the entire fleet 
is going through a number of upgrades and modifications including a 
rewiring program to remove all Kapton wiring by 2021, installation of 
the NP2000 eight-bladed propeller (currently on the E-2C aircraft), and 
the installation of the CNS/ATM system, an avionics upgrade that 
includes improvements to the communications, navigation, air traffic 
control, and cockpit display systems.
    Mrs. Drake. The Navy Marine Corps Intranet (NMCI) was a significant 
investment for the Department of the Navy and is now deemed a visionary 
step for both the Navy and the Marine Corps--its secure and enables the 
Department of the Navy to better manage IT spending. Your enterprise IT 
approach has been different than the other services. Is there a lesson 
here for everyone?
    Secretary Winter. NMCI was a significant departure from the way the 
Department of the Navy (DON) procured and sustained IT and has provided 
many benefits for the Department. First and foremost, NMCI decidedly 
improved DON's cyber-security posture, as compared to its legacy 
networks. Through NMCI, DON was able to eliminate IT ``have nots'' and 
was able to deploy Department-wide initiatives such as Navy Enterprise 
Resource Products and Common Access Card log-on. NMCI provides 
unprecedented visibility into IT costs and is providing a platform to 
enable the elimination of costly and duplicative legacy networks 
through the ongoing Cyber Asset Reduction & Security initiative.

    Additional lessons learned are:

      -  IT is critical to warfighting and business processes and 
should be reflected as such.

      -  Greater service mobility and increased remote accessibility 
should be sought to accommodate the increasingly mobile workforce.

      -  Users want more intuitive knowledge management and sharing 
capability, less intrusive security and less arduous certification 
requirements. Network Operators, on the other hand, want improved 
security and more arduous certification requirements to deal with an 
ever increasing threat environment. Leadership must balance these 
competing mission/user needs.

      -  Operators and users both need adaptable architecture, improved 
interoperability and increased collaboration.

    Mrs. Drake. There are concerns that the Navy is heading towards a 
virtual IT ``traffic jam'' with its attempt to move forward 
simultaneously on the Next Generation Enterprise Network (NGEN) and the 
Navy Consolidated Afloat Network and Enterprise Services (CANES) 
program. How does the Navy intend to manage the sequencing and 
integration of these efforts?
    Secretary Winter. The fielding schedules for both CANES and NGEN 
have been examined closely for potential conflicts, and where 
necessary, adjustments have been made. As currently scheduled, we 
believe the afloat network--CANES--can be fielded without difficulty at 
the same time the ashore network--NGEN--is rolling out. Since CANES is 
composed of mature and reliable technologies that are being inserted 
into the Fleet in place of older equipment in need of tech refresh, we 
believe its fielding will actually lower the risk of an ``IT traffic 
jam.'' NGEN fielding and deployment is still under consideration, and 
the interface with the afloat network and the demand placed upon Navy 
training, engineering, and acquisition competencies are key factors in 
the schedule, capacity, and capability deliberations. Both programs are 
reviewed frequently by senior leadership for program status and health, 
and the program offices are coordinating closely to sequence and 
integrate where necessary.
    Mrs. Drake. General Conway, I think we on the committee would 
benefit from a restatement on the Expeditionary Fighting Vehicle and 
its importance to the Marine Corps. Also, would you address the current 
legacy system and its limitations in the current fight?
    General Conway. Fielding the Expeditionary Fighting Vehicle (EFV) 
is a National imperative. This vehicle is necessary to ensure the 
Marine Corps can continue to perform the Nation's forcible entry 
operations. Due to anti-access threats, such as anti-ship missiles and 
mines, US Navy ships must stay 25 miles off the coast to mitigate 
shore-based weapons. The EFV gives the Navy and Marine Corps increased 
range, speed, and maneuverability to quickly close this greater ship to 
shore distance. The EFV is the only platform that will allow the Marine 
Corps to continue to provide the Nation's joint forces with a unique 
and flexible forcible entry capability from the sea. This capability 
will also allow the entry forces to land on expanded landing sites, 
leading to greater opportunities for success.
    The EFV will replace the aging Assault Amphibious Vehicle (AAV)--in 
service since 1972, with greatly enhanced capabilities. The legacy 
AAV's key limitations in the current fight are its lack of armor and 
reliance on limited command and control systems. It is an aging 
platform with constant maintenance challenges. The legacy AAV must 
launch from amphibious ships near the beach, in full view of enemy 
defenses, and it cannot travel faster than seven knots in the water. 
Additionally, the legacy AAV relies on non-stabilized .50 caliber and 
MK-19 heavy machine gun weapon systems.
    The EFV, along with its ability to launch from 25 miles out at sea 
and travel at 20 plus knots in the water, will have a 30mm high 
velocity cannon and a 7.62mm machine gun in a fully stabilized turret. 
Further, the EFV will have a Nuclear, Biological, and Chemical defense 
overpressure system for protection of the crew and embarked Marines. 
The EFV will also possess an enhanced communications package consisting 
of Very High Frequency and Ultra High Frequency radios, Satellite 
Communication, Global Position System, the Enhanced Position Location 
Reporting System, and the Command and Control Personal Computer system. 
Last, the new EFV's armor will be capable of defeating 14.5mm armor 
piercing ammunition at 300 meters without the need for heavy, bolt-on 
applique armor.
    The EFV's inherent capabilities provide utility across the spectrum 
of conflict, and will not be limited to forcible entry operations. Its 
amphibious mobility, day and night lethality, robust communications, 
and enhanced force protection will substantially improve joint force 
capabilities and sustained operations ashore and will allow the Marine 
Corps to continue to provide the Nation's joint forces with a unique 
and flexible forcible entry capability from the sea. EFV is the 
Nation's sole sea-based, surface-oriented vehicle that enables 
projection of combat power from a seabase to an objective. Its over-
the-horizon capability will enable amphibious ships to increase their 
standoff distance from the shore protecting them from enemy anti-access 
weapons.
    As a final thought, on a recent trip to China I had the opportunity 
to ride on their EFV. It is multi-capable, it is effective, and it is 
fielded to their operational forces.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. COURTNEY
    Mr. Courtney. As you know, our attack submarine force is, as 
Admiral Donnelly has said, ``a high demand, low density asset.'' In 
2007, the SSN fleet was only able to meet 54 percent of our combatant 
commanders' requests for submarine mission days, continuing a downward 
trend from 66 percent in 2004. Of the 2007 total, I understand and 
appreciate that while nearly all of the ``critical'' requests were met, 
only 62 percent of the combined ``critical'' and ``high priority'' 
requests were met. Please discuss the trend in the demand for the SSN 
fleet--have you seen the number for requests for SSN from our combatant 
commanders' increase since 2004? And, do you expect demand for SSN days 
to grow in the near term even as the number of hulls decline? With a 
decline in the size of the SSN force to a low of 40 boats in the 2022-
2033 timeframe under the 30-year shipbuilding plan and the fact that 
the SSN fleet is today only able to meet just over half of the requests 
made of it, how will you account for the demand for forward deployed 
and operating SSNs with fewer hulls in the water?
    Admiral Roughead. While the volume of annually deployed SSNs has 
remained constant, there has been an increasinbg trend of Combatant 
Commander (COCOM) requests for SSN presence since 2004. The result is 
decreased ability to fulfill all COCOM requests. All COCOM critical 
mission requirements have been met. Of the additional COCOM requests 
for capability, the Chairman of the Joint Chiefs of Staff uses the 
Global Force Management Process to prioritize and allocate SSN 
presence.
    A naval battle force inventory of 48 SSNs will provide 
approximately ten forward deployed SSN years annually. To reduce the 
impact of the projected dip below 48 SSNs (from 2022-2033), reaching a 
low of 41 in 2028-2029, the Navy has identified a three part mitigation 
strategy consisting of reduced construction timelines of VIRGINIA Class 
submarines, selected hull-life extensions of LOS ANGELES class 
submarines, and targeted deployment extensions. This mitigation 
strategy is expected to allow the Navy to cointinue to provide the same 
level of submarine deployed presence to the Combatant Commander in the 
2022 to 2033 timeframe that is provided by a traditional 48 SSN 
inventory.
    Mr. Courtney. The FY2009 30-year shipbuilding plan states that 
``the replacement program for the OHIO class ballistic missile 
submarines is a strategic issue that merits immediate attention. Absent 
additional resources to recapitalize this national strategic 
capability, the Navy will be unable to concurrently replace the 
existing OHIO class submarines and the balance of its force structure 
requirements.'' Please explain this statement. Does this mean that the 
Navy's long term shipbuilding plan does not program sufficient funding 
to design and build the next generation SSBN?
    Secretary Winter. The Navy is working to define the initial 
capabilities for the Sea-Based Strategic Deterrent, which will describe 
the attributes required for strategic deterrence influence for the 
follow-on capability to the OHIO Class SSBN. This capability analysis 
will support an Analysis of Alternatives planned to be conducted in 
fiscal year 2009.
    The Navy anticipates commencing Research and Development efforts 
for the follow-on to the OHIO Class SSBN in fiscal year 2010. However, 
since the OHIO Class SSBN replacement has neither been designed, nor 
the program developed, any cost estimate for the Shipbuilding and 
Conversion, Navy at this time would be premature.
    Mr. Courtney. Under the Navy's current plan, major design work is 
not scheduled to begin on the next SSBN until 2012. Last year, Congress 
provided $5 million to start some of the early conceptual work on the 
SSBN. In the 30-year shipbuilding plan, the Navy states: ``the navy 
will continue to work with US Strategic Command to complete the 
requirements analyses and systems studies necessary to define the 
replacement program.'' With the RAND study recommending an earlier 
start and a longer design process than usual, the need to sustain the 
specialized submarine design workforce, Navy's ongoing work with 
STRATCOM to define the SSBN program and the concern over resources 
available to support the program in the long term, how can Congress 
best support continued progress on the next generation SSBN program?
    Secretary Winter. The Navy's 30-year Shipbuilding Plan and the 
President's Budget strike the best balance between available funding 
and force level requirements, while maintaining stability throughout 
the shipbuilding industry. The Navy is working to define the initial 
capabilities for the Sea-Based Strategic Dterrent, which will describe 
the attributes required for strategic dterrence influence for the 
follow-on capability to the OHIO Class SSBN. This capability analysis 
will support an Analysis of Alternatives (AoA) planned to be conducted 
in fiscal year 2009. The AoA must define a preferred alternative before 
the funding requirements can be determined. That said, once the 
preferred alternative and associated funding are identified, the best 
means to ensure continued progress on the next-generation SSBN program 
will be through Congressional support of the program's future 
authorization and appropriation funding requirements.

                                  <all>

</pre></body></html>
